<html>
<title> - IRREGULAR WARFARE AND STABILITY OPERATIONS: APPROACHES TO INTERAGENCY INTEGRATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-118]
 
 IRREGULAR WARFARE AND STABILITY OPERATIONS: APPROACHES TO INTERAGENCY 
                              INTEGRATION

                               __________

                             JOINT HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                          MEETING JOINTLY WITH

   TERRORISM AND UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 26, 2008



[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]






                   U.S. GOVERNMENT PRINTING OFFICE
43-782                      WASHINGTON : 2009
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001










               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
               Suzanne McKenna, Professional Staff Member
                Thomas Hawley, Professional Staff Member
                Roger Zakheim, Professional Staff Member
                    Sasha Rogers, Research Assistant
                                 ------                                

    TERRORISM, UNCONVENTIONAL THREATS AND CAPABILITIES SUBCOMMITTEE

                    ADAM SMITH, Washington, Chairman
MIKE McINTYRE, North Carolina        MAC THORNBERRY, Texas
ROBERT ANDREWS, New Jersey           ROBIN HAYES, North Carolina
JIM COOPER, Tennessee                KEN CALVERT, California
JIM MARSHALL, Georgia                JOHN KLINE, Minnesota
MARK UDALL, Colorado                 THELMA DRAKE, Virginia
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
KIRSTEN GILLIBRAND, New York         JIM SAXTON, New Jersey
KATHY CASTOR, Florida
                Eryn Robinson, Professional Staff Member
               Alex Kugajevsky, Professional Staff Member
                     Andrew Tabler, Staff Assistant











                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Tuesday, February 26, 2008, Irregular Warfare and Stability 
  Operations: Approaches to Interagency Integration..............     1

Appendix:

Tuesday, February 26, 2008.......................................    37
                              ----------                              

                       TUESDAY, FEBRUARY 26, 2008
 IRREGULAR WARFARE AND STABILITY OPERATIONS: APPROACHES TO INTERAGENCY 
                              INTEGRATION
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     3
Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Terrorism and Unconventional Threats and Capabilities 
  Subcommittee...................................................     2
Snyder, Hon. Vic, Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1
Thornberry, Hon. Mac, a Representative from Texas, Ranking 
  Member, Terrorism and Unconventional Threats and Capabilities 
  Subcommittee...................................................     2

                               WITNESSES

Davenport, Rear Adm. Dan, U.S. Navy, Director, Joint Concept 
  Development and Experimentation Directorate (J-9), U.S. Joint 
  Forces Command.................................................    19
Herbst, Ambassador John, Coordinator for Reconstruction and 
  Stabilization, U.S. Department of State........................     5
Holmes, Brig. Gen. Robert H., U.S. Air Force, Deputy Director of 
  Operations, U.S. Central Command...............................    21
Kearney, Lt. Gen. Frank, U.S. Army, Deputy Commander, U.S. 
  Special Operations Command.....................................    22
Osborne, Col. Joseph E., U.S. Army, Director, Irregular Warfare 
  Directorate (J-10), U.S. Special Operations Command............    24
Vickers, Michael, Assistant Secretary of Defense for Special 
  Operations/Low Intensity Conflict and Interdependent 
  Capabilities, U.S. Department of Defense.......................     4

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    45
    Davenport, Rear Adm. Dan.....................................    61
    Herbst, Ambassador John......................................    54
    Holmes, Brig. Gen. Robert H..................................    72
    Osborne, Col. Joseph E.......................................    79
    Smith, Hon. Adam.............................................    44
    Snyder, Hon. Vic.............................................    41
    Thornberry, Hon. Mac.........................................    47
    Vickers, Michael.............................................    48

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Mrs. Davis of California.....................................   103
    Mrs. Drake...................................................   104
    Mr. Marshall.................................................   100
    Dr. Snyder...................................................    91
 IRREGULAR WARFARE AND STABILITY OPERATIONS: APPROACHES TO INTERAGENCY 
                              INTEGRATION

                              ----------                              

        House of Representatives, Committee on Armed 
            Services, Oversight and Investigations 
            Subcommittee, Meeting Jointly with Terrorism 
            and Unconventional Threats and Capabilities 
            Subcommittee, Washington, DC, Tuesday, February 
            26, 2008.

    The subcommittees met, pursuant to call, at 2:06 p.m., in 
room 2118, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the Subcommittee on Oversight and Investigations) 
presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order.
    As you know, this is a joint hearing that we are having 
this afternoon between the Subcommittee on Oversight and 
Investigations of which I am the subcommittee Chair and Mr. 
Akin is the ranking member and the Subcommittee on Terrorism, 
Unconventional Threats, and Capabilities of which Mr. Adam 
Smith is the chairman and Mr. Thornberry is the ranking.
    If you have any curiosity about why I am sitting here and 
Mr. Smith is sitting there, it is because, at some point about 
12 years ago, there was a flip of the coin that determined I 
had overwhelmingly more senior status compared to him, even 
though the election was the same exact date. But, actually, it 
is because he is in the West Coast time zone, and the election 
in Arkansas closed in 1996 slightly before the one in 
Washington State.
    You know, we have a big Presidential campaign going on 
right now, and all of us have followed this with some interest. 
I have not heard the phrases ``Joint Interagency Coordination 
Group,'' ``Effects Synchronization Committee,'' or ``Irregular 
Warfare Fusion Center'' come up at any of the debates or any of 
the speeches of any of our candidates, and yet we are all here 
today because we think this stuff is pretty important. We think 
it has a lot to do on some of the good things that have 
happened in our national security in the past and some of the 
better things we hope to happen in the future as we get better 
and better at these interagency relationships, and I, frankly, 
think we have quite a ways to go. So that is why we are here 
today.
    And we wanted to welcome you, and I think that is all I 
will say at this point, other than I want to give you fair 
warning we do have votes coming up probably in the 3:00-3:30 
range. I would encourage all our witnesses to summarize your 
opening statements. You need to tell us whatever you think you 
need to tell us, but I would err on the side of brevity, and I 
personally also would appreciate it if you avoided acronyms. 
There was a fairly impressive display of acronyms in the 
written statements. I considered putting up a jar that you 
would have to throw a dollar in the pot every time you used an 
acronym. Now this is risky for some of you because I suspect 
some of you have an acronym that you do not know what it stands 
for, but that will be fun, too.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 41.]
    So Mr. Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
CHAIRMAN, TERRORISM AND UNCONVENTIONAL THREATS AND CAPABILITIES 
                          SUBCOMMITTEE

    Mr. Smith. Thank you, Mr. Snyder.
    I agree with all the statements of Mr. Snyder and will be 
brief myself in respect to time and look forward to hearing 
from our witnesses and hearing the interaction.
    Obviously, these issues are very important. I have spoken 
to Mr. Vickers about it before. We are very interested in this 
committee on counterinsurgency, irregular warfare, and what we 
can do to get better at it, and I guess the one piece that I am 
interested in most is the interagency cooperation piece, which 
is why, of course, we have the State Department and the Defense 
Department here, but there are many other agencies as well who 
have a piece of this.
    And I think one of the challenges in getting this right is 
figuring out what all of those pieces are and bringing them 
together, and the model that is, you know, stuck in my mind is 
what they have done over at Joint Special Operations Command 
(JSOC) on the direct action piece. They do briefings, and they 
have everybody under the sun from all over the world from a 
whole bunch of different agencies. They get together--I think 
they get together once a day--to talk about it, so everybody is 
on the same page, everybody is playing, everyone has some idea 
who the other guys are.
    I think one of the challenges on the low-intensity conflict 
irregular warfare piece is, first of all, figuring out who 
those players are in the various different places, but then 
getting them together. So I am very interested in your ideas on 
how we could pull that together because that is my vision, is 
that we have, you know, that sort of hearing every day the same 
way they do at JSOC on the irregular warfare counterinsurgency 
side.
    So I look forward to the testimony, and I thank Chairman 
Snyder for doing this joint hearing.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 44.]
    Dr. Snyder. Mr. Thornberry.

STATEMENT OF HON. MAC THORNBERRY, A REPRESENTATIVE FROM TEXAS, 
   RANKING MEMBER, TERRORISM AND UNCONVENTIONAL THREATS AND 
                   CAPABILITIES SUBCOMMITTEE

    Mr. Thornberry. Thank you, Mr. Chairman.
    You also will not hear in the Presidential debates that 
this is an issue that Republicans and Democrats, at least on 
these two subcommittees, strongly agree upon, that this is a 
very important matter with a sense of urgency, and I think all 
of us, who have talked to folks coming back from Iraq and 
Afghanistan as well as a fair number of people within the 
beltway, share that sense of urgency that something has to be 
done to help this government be more effective at the kinds of 
things that we are talking about today.
    So I appreciate you all being here and look forward to your 
statements.
    [The prepared statement of Mr. Thornberry can be found in 
the Appendix on page 47.]
    Dr. Snyder. Mr. Akin.

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman.
    Just to pretty much echo what the others have said, this is 
an issue--the idea of extending jointness beyond just 
Department of Defense--that is attractive for a couple of 
different reasons. One, the potential for improving how we 
operate with foreign countries is tremendous, and the second is 
that, unlike most issues that we deal with--you have the 
liberals, conservatives, Republicans, Democrats--everybody is 
interested and has the sense that this is a very high payback 
kind of project to be working on. So just a whole lot of 
interest.
    And if I could submit my opening statement for the record, 
Mr. Chairman?
    Dr. Snyder. Without objection.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 45.]
    Dr. Snyder. Any opening statements of committee members 
will be made part of the record.
    Your all's opening statements, without objection, will be 
made part of the record.
    I also wanted to mention in the spirit of both Mr. 
Thornberry and Mr. Akin that Bill Delahunt, who is one of the 
subcommittee Chairs on Foreign Affairs, is very interested in 
this topic. He and I have talked about doing joint committee 
hearings on it. Mr. Tierney from the Government Reform and 
Oversight Committee--he is one of the subcommittee Chairs 
there--he is also very interested in this topic and would have 
been here today but for a conflict. And Sam Farr from the 
Appropriations Committee is very interested in this topic and 
has attended several of our hearings here.
    That is by way of saying this is of bigger interest than 
just one small or two small subcommittees. I think there is a 
lot of interest. I know Mr. Skelton is very interested in this 
topic, too.
    With that, Mr. Vickers, we are going to put on the five-
minute clock. When the red light goes off, you feel free to 
keep talking if you have something to tell us, it is just to 
give you an idea of where your time is at.
    Mr. Vickers.

 STATEMENT OF MICHAEL VICKERS, ASSISTANT SECRETARY OF DEFENSE 
       FOR SPECIAL OPERATIONS/LOW INTENSITY CONFLICT AND 
    INTERDEPENDENT CAPABILITIES, U.S. DEPARTMENT OF DEFENSE

    Mr. Vickers. Thank you.
    Chairman Snyder, Chairman Smith, Ranking Member Akin, 
Ranking Member Thornberry, distinguished members of the 
subcommittees, I am pleased to be here with you today to 
discuss the Department's progress in developing capabilities 
and capacities for irregular warfare and stability operations 
and in integrating these capabilities with those of other U.S. 
Government departments and agencies.
    Today and for decades to come, the United States and our 
international partners must contend with terrorists with global 
reach, with rogue regimes that support terrorists and seek to 
acquire weapons of mass destruction, with threats emerging in 
and emanating from ungoverned areas and weak or failing states, 
and with new manifestations of ethnic and sectarian and tribal 
conflict. Most importantly, many of these threats emanate from 
countries with which the United States is not at war and thus 
placing a premium on interagency cooperation and integration. 
The responses to these many threats extend well beyond the 
traditional domain of any single government agency or 
department.
    It is my responsibility as Assistant Secretary of Defense 
for Special Operations/Low Intensity Conflict and 
Interdependent Capabilities to implement the vision provided in 
the 2006 Quadrennial Defense Review (QDR) across all of the 
Department's warfighting capabilities, while providing policy 
oversight over their employment.
    The QDR importantly established that irregular warfare, 
with stability operations as an important subset, is as 
strategically important to the United States and the Department 
of Defense as traditional warfare. As a result, it was 
incorporated into the Department's force planning construct, 
influencing not only the size of our force, but the shape of 
our force and its capabilities as well.
    Irregular warfare includes counterterrorism, unconventional 
warfare, foreign internal defense, counterinsurgency, and 
stability operations, although stability operations also can be 
outside of irregular warfare. Many of the capabilities required 
to execute these missions are resident in some parts of our 
force, but not with sufficient capacity to meet expected 
demand. In other cases, we need to develop new capabilities to 
address emerging challenges.
    Rebalancing the overall defense portfolio to ensure that 
the Joint Force is as effective in irregular warfare as it is 
in traditional warfare requires focused efforts in three areas: 
growing Special Operations Forces capacity while ensuring 
continued quality, rebalancing general purpose force capability 
toward irregular warfare while maintaining their capability for 
a conventional campaign, and then promoting increased 
integration between SOF, Special Operations Forces, and our 
general purpose forces, between the Department of Defense and 
our interagency partners, and between the U.S. Government and 
our international partners.
    We are exploring several transformational ways to enhance 
our irregular warfare capabilities. Very recently, Deputy 
Secretary of Defense Gordon England initiated a departmentwide 
review of the capabilities required to train, advise, and 
assist foreign security forces. The results from this study 
will soon be reflected in the Department's strategic planning 
and resource priorities.
    The Department's strategic plan will direct further 
examination of irregular warfare capabilities across a wide 
range of scenarios, and it will identify areas where we can 
accept some risk to increase investment in areas where we are 
less proficient, including irregular warfare. We are in the 
early stages of developing a Department of Defense (DOD) 
directive that takes a comprehensive view of irregular warfare 
concepts and requirements, and we believe this approach will 
facilitate more efficient use of our resources.
    We strongly support interagency planning efforts in 
irregular warfare ranging from the Counterterrorism Center to 
the Interagency Management System, and we have made significant 
progress across the interagency.
    In a separate venue, I would be happy to provide additional 
detail regarding the progress we have seen in our partnerships 
with the intelligence community.
    DOD strongly supports the Civilian Stabilization 
Initiative, a $249 million program in the State Department's 
fiscal year 2009 budget request, which answers the President's 
call to improve the United States' ability to respond to 
instability in conflict.
    In sum, the Department recognizes that winning the war on 
terror requires synergistic effort from the entire U.S. 
Government working by, with, and through our international 
partners. With your continued support, we will continue to 
exercise the agility needed to strengthen these partnerships in 
ways that preserve and protect the values and interests of our 
Nation.
    Thank you.
    [The prepared statement of Mr. Vickers can be found in the 
Appendix on page 48.]
    Dr. Snyder. Thank you, Mr. Vickers.
    Mr. Herbst. Ambassador Herbst.

     STATEMENT OF AMBASSADOR JOHN HERBST, COORDINATOR FOR 
   RECONSTRUCTION AND STABILIZATION, U.S. DEPARTMENT OF STATE

    Ambassador Herbst. Chairman Snyder, Chairman Smith, Ranking 
Members Akin and Thornberry, distinguished members of the 
committee, thank you for the opportunity to testify.
    As Secretary Vickers pointed out, we face unusual dangers 
today in the world from failed states. These unusual dangers 
require a new response, a response which takes count of all the 
assets of the U.S. Government and, for that matter, of U.S. 
society.
    The steps to successfully meet this challenge require doing 
something that is done by the military, which is building the 
necessary human capacity to develop planning and management 
systems, to train experts with the necessary skills in the 
situations they are likely encounter, and to repeatedly 
exercise with partners until our people are ready.
    At the center of this preparation is the effort to 
strengthen the partnership within the United States Government 
between civilians and the military, so that as new threats 
evolve and possibly rise to the level of military engagement, 
we have relationships that will serve our Nation effectively.
    My office operates under National Security Presidential 
Directive 44, which calls on both civilian and military 
elements of the federal government to promote our national 
security through improved coordination, planning, and 
implementation. Our job is to support the Secretary of State in 
her lead role in integrating U.S. efforts to prepare for, plan, 
and conduct reconstruction and stabilization activities. A core 
part of this job is harmonizing civilian and military efforts 
so that civilians are planning and working with the military 
before the start of any operation.
    Over the last year, we have been working together across 15 
civilian and military agencies to significantly improve the 
management of U.S. Government reconstruction and stabilization 
operations. This unprecedented process has brought together a 
tremendous range of experts to determine the civilian capacity 
of the U.S. Government, what it needs in stabilization 
operations. It has required an extraordinary commitment to 
staff and has required expertise that has also benefited from 
the impressive support from Members of Congress, outside 
experts, including the academic community.
    The examination has identified three required levels of 
deployable civilian efforts for use in failed states: an Active 
Response Corps of up to 250 first responders from civilian 
federal agencies. This Active Response Corps will be comprised 
of people who are able to deploy within 48 to 72 hours of a 
decision. They would be able to deploy with the 82nd Airborne, 
if that was considered necessary.
    Backing them up will be a Standby Response Corps of over 
2,000 government officials who have full-time day jobs, but who 
train several weeks a year and who will be able to deploy 
within 45 to 60 days of a decision. We should be able to deploy 
anywhere from 200 to 500 of the Standby Response Corps in a 
crisis.
    Backing them up will be a Civilian Reserve Corps, modeled 
after our military reserve system, comprised of private 
citizens from across the country who would sign up for four 
years, who would train for several weeks a year, and who would 
deploy for up to one year in that four-year period. We are 
talking about having 2,000 people in the Civilian Reserve Corps 
of whom we could deploy up to 25 percent at any one time.
    The Civilian Stabilization Initiative would create these 
three corps of people. It was embraced by the President and 
presented to the Congress in the fiscal year 2009 budget. The 
cost for this is $248.6 million. The Civilian Stabilization 
Initiative, as outlined in the President's budget request, will 
provide a full complement of U.S. civilian personnel that can 
respond quickly and flexibly to stabilization challenges. It 
provides for new positions within the U.S. State Department, 
the Agency for International Development (AID), and other 
partner agencies devoted to increasing civilian reconstruction 
and stabilization expertise.
    This initiative is a critical first step to ensure that we 
have the right people with the right skills ready to deploy 
quickly. However, making sure that these experts are doing the 
right things on the ground according to one strategic plan, 
with full synchronization between military and civilian 
operations, continues to be the most complex and challenging 
task under National Presidential Security Directive 44. In 
response to the challenge, we have created the Interagency 
Management System. This system fully links efforts of the State 
Department, the other civilian agencies, and the Department of 
Defense to ensure a single plan of operations in a 
stabilization crisis.
    We have already been partnering with our other civilian 
agencies and the military and, for that matter, with 
international partners to test the Interagency Management 
System. We have worked out planning systems and potential 
challenges in the training and exercise environment so we will 
be ready to respond effectively when the next crisis occurs.
    There is no question that failed states represent a 
premier, if not the premier, security challenge of the next 
generation. Building a U.S. civilian planning and response 
capability as embodied in the Civilian Stabilization Initiative 
will ensure that we are able to partner with the military, 
providing the necessary skills to deal with our national 
security challenges.
    Thank you very much.
    [The prepared statement of Ambassador Herbst can be found 
in the Appendix on page 54.]
    Dr. Snyder. Gentlemen, we were wrong in our estimation of 
our times. The beepers went off. There will be a series of 
votes. We are going to try to get in a question or two or 
three. I am going to ask one question and go to--who is next 
then? Mr. Smith?
    I wanted to ask, in your written statement, Ambassador 
Herbst, on page three, you state, ``Just as the military 
underwent tremendous reform in the 1980's following the passage 
of the Goldwater-Nichols Act, we are proposing shifts across 
our civilian agencies that will bring all elements of national 
power to bear in the defense of America's vital interests.''
    A lot of us have talked about the Goldwater-Nichols, I 
guess, more as a metaphor or example of proposed change. What 
do you see that is on the scene right now that rises to the 
level of the Goldwater-Nichols Reform Act in terms of what is 
going on? I mean, I do not see that level. I do not see that 
level of mandate, that level of incentive in personal policies, 
that level of transparency, that level of drive from the 
highest levels of government, but what do you see that compares 
what you all are doing right now to that level of mandate?
    Ambassador Herbst. I think that the Interagency Management 
System under National Security Presidential Directive 44 is 
roughly analogous to Goldwater-Nichols. This National Security 
Presidential Directive and our agreement as we implement it 
have established interagency coordination which did not exist 
in the past.
    We will have an Assistant Secretary level group called the 
Country Reconstruction and Stabilization Group overseeing 
policy. Every civilian agency which has assets to bear in a 
stabilization crisis will sit on this policy group. Under this 
group, there will be a secretariat which will write a plan of 
stabilization operations.
    If the Civilian Stabilization Initiative is approved, if it 
is funded, we will create standing bodies of 250 Active 
Response Corps members who will sit in all civilian agencies, 
who will train extensively as a team, who will be represented 
in my office which will function as an interagency office, to 
produce an interagency plan with interagency teams to deal with 
the crisis of stabilization operations.
    This will give us an effective interagency tool using each 
asset of the interagency linked up entirely with our military 
to deal with stabilization crises.
    Now there are some things that could still be done. The 
Interagency Management System has to be utilized. We have to 
adjust not just training procedures--that is underway--but also 
employment practices. But these are things which are right now 
being considered for addition in, for example, the State 
Department's personnel system to insist that people get 
involved in interagency activities, to make that part of the 
standards for advancement in the Foreign Service.
    Dr. Snyder. Mr. Smith for five minutes for questions.
    Mr. Smith. Thank you. I will try to be quick.
    Just sort of following up on what Dr. Snyder said, I think 
our real concern on--certainly on my subcommittee that Mr. 
Thornberry and I have talked about and I think Dr. Snyder 
shares that concern as well--is the level of commitment to 
these types of changes, and there are, you know, a lot of 
things we are worried about that have not happened.
    I mean, you look at the Defense Department budget, you 
know, post-9/11, it has gone up. You can look at that, and you 
see everything that has happened post-9/11 and really get a 
good gauge of our commitment to sort of the shooting side of 
the war, if you will.
    On this side of it, on the counterinsurgency, irregular 
warfare, you know, development aid has not really gone up. The 
United States Information Agency has been, you know, gotten rid 
of, not really focused on very much. USAID declassified within 
the State Department. None of that has been replaced. The 
budgets across the board for you at State anywhere have not 
gone up.
    And the other question is--when you look at what you are 
talking about putting together here, the question of sort of 
who is running it--you know, back to my JSOC analogy, without 
getting too much into that because a lot of it is classified, I 
know who is in charge of that, and you can look at that and you 
can see how they have structured it to make sure it gets done.
    On this side of it, it seems like, number one, we were 
painfully slow to react. We were into 2006 and 2007 before we 
started doing some of these things, and even now there is a lot 
of activity, but there is not a lot more money. So where are we 
pumping the money in? How are we, you know, raising the focus, 
getting someone who is in charge, really making those shifts?
    And I ask that as a friendly question because we on this 
committee want to help. You know, we want to help direct money. 
We want to help place greater emphasis there. We just want to 
get sort of a feeling on the Administration side, what are they 
truly doing to bring this about, if there are not those changes 
that I have just talked about in some of the key areas, 
particularly when you talk about the bottom line, money, 
getting the money in to really beef these things up.
    Ambassador Herbst. Mr. Chairman, I think that there is no 
question that the fiscal year 2009 budget presented by the 
Administration reflects the same concerns that you have just 
expressed. It reflects the recognition that to enhance our 
national security, we have to beef up not just the personnel 
and the budget at the State Department and USAID, but also 
create this fast response capability, the Civilian 
Stabilization Initiative, for which I am responsible.
    Now, given your concerns, I would hope that there would be 
support for the budget request we have put forward, but we 
understand that the budget is an important part--but not the 
only part--of it. To deal with the type of crises that we are 
facing and are going to face for the next generation or two, we 
need to have the interoperability within the U.S. Government on 
the civilian side which we have not seen in the past.
    A very smart guy in my office posted a sign on his door 
quoting Machiavelli saying, ``There is nothing more difficult 
than to create a new system in government.'' I can appreciate 
the insight of Machiavelli, having done this job for the last 
20 months, but point of fact, we have made a breakthrough in 
the Administration.
    Over a year ago at an Assistant Secretary level group that 
I chaired in January of 2007, we reached agreement on the 
civilian capabilities we need. We reached agreement on 
Interagency Management System. And this was then approved at 
higher levels in the Administration.
    What we need now is to get the approval and support of the 
Congress to do this, and with that, we could have this 
capability up and running within 15 to 18 months, once we have 
the approval.
    And then we will be able to put these civilians into the 
field, and we will need a vast improvement over how we have 
been doing things to date, although I am certain we will find 
new problems that we will have to fix.
    Mr. Smith. Thank you very much. I appreciate that.
    Dr. Snyder. We will give Mr. Thornberry a quick bite at the 
apple before we have to run.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    Mr. Vickers, let me play devil's advocate for just a 
second. I would argue perhaps that there are elements of 
irregular warfare that are fundamentally incompatible with big 
bureaucracies.
    You mentioned in your statement strategic communications, 
for example. So, whether you are talking about within the 
Department of Defense or on an interagency basis, if you are 
not moving in real time with communications and making 
decisions and getting messages out, you are not a player in the 
game. If you have to run up the chain of command and get this 
approval and that sign-off, you are irrelevant to the 
communications that are going on at that point.
    And so the skeptic in me would say adding layers of new 
coordinating committees is not going to solve this problem. It 
requires deeper change than that.
    Now do you think I am wrong?
    Mr. Vickers. No, I think you are absolutely right. As a 
veteran of the Central Intelligence Agency, a lot of things 
that we were able to do in the 1980's depended on just those 
kinds of shortcuts.
    Strategic communications is probably an area where not just 
the interagency system, but our strategy and, to some extent, 
our capabilities, but fundamentally our strategic approach has 
the furthest to go, and I will be quite candid about that.
    I think the important point that you were making, which I 
would underscore, is interagency integration is not enough. You 
really need interagency capabilities, and you need appropriate 
strategies. All the integration in the world is not going to 
work if we do not have the right tools to work with, and that 
is why things like the Civilian Stabilization Initiative or--as 
my own Secretary has said, we have done a lot to improve our 
intelligence since 9/11, we have expanded the Department of 
Defense, we have done correspondingly less in the Department of 
the State, and we need to shore up capabilities in that area.
    And then I agree strategic communications is an area where 
there is much to be done.
    Dr. Snyder. Mr. Akin, when we come back, you will begin. 
You will get your full five minutes.
    I think we are in for several votes. The staff will work 
with any of you here, both our first and second panel, if you 
need phones or a private room or whatever it is that we can 
help you with. I apologize for this, but we will be back.
    [Recess.]
    Dr. Snyder. We appreciate your all's patience. The House 
floor business is done for the day, so unless lightning 
strikes, we are in good shape here. We appreciate you being 
here. I know some of you have had to move schedules around.
    What we will do is finish with the questions of you, Mr. 
Vickers and Mr. Herbst, and then have you all slide down, bring 
our other witnesses, hear their opening statements, and then go 
another round, and we certainly understand if anybody needs to 
leave. We appreciate your patience.
    Mr. Akin for five minutes.
    Mr. Akin. Thank you, Mr. Chairman.
    We were pretty much, as I recall, on the subject of trying 
to develop this concept of jointness, and I understand, 
Ambassador, your concept that, first of all, if you start where 
you are all agreeing to what the plan is, that that is a very 
good first step.
    When we looked at jointness some years ago, I am afraid 
before my time even, there were several things that were felt 
were important. One of them was basically to force people to 
interoperate so you are mixing your management up with people 
from all sides.
    The first question is: Is that necessary?
    The second question: I have heard it said the State 
Department just the way it is organized as an agency does not 
fit into this kind of concept very well anyway, just because of 
the structure of the way that they think and organize. I do not 
know if that is excessive pessimism or realism. I am not sure.
    And then the third thing would be: As you take a look at 
putting things together on the side of the administration, do 
you have a problem with the fact that--military people, you 
say, ``Go there'' or ``Do that.'' The State Department people 
say, ``I do not think I want that assignment. I will take 
something else.'' How do you deal with that question?
    So I think that is just a start.
    Ambassador Herbst. Well, first of all, it is certainly true 
that in order to develop effective civilian interagency 
operations, we need to plan, train, and deploy together, and 
all of this is envisaged under the Civilian Stabilization 
Initiative. Even before we had put this initiative forward, we 
had been planning and training together. There have been 
various exercises, civilian and civilian-military, which have 
participation from USAID, Treasury, Justice, State and so on. 
This is the future, and we understand that, and approval by 
Congress for the Civilian Stabilization Initiative will give us 
an enormous amount of momentum.
    Regarding the State organization, I am not here to address 
the past. I am here to address what we are doing and what we 
expect to be doing in the future. We understand--the Office of 
the Coordinator for Reconstruction and Stabilization (S/CRS) 
and the Secretary of State operating under S/CRS understand--
that interoperability, working with our interagency partners, 
is absolutely essential to meet our national security 
interests, and that is what we are developing, and that is what 
we intend to do.
    Finally, the notion of assignments and how people get to go 
to the world's more interesting and less benign places. The 
force that we are developing is meant to be used in all 
circumstances, including hostile circumstances. The Active 
Response Corps will be deploying people to places where bullets 
are flying, perhaps along with, at the same time as, our 
military.
    S/CRS has already pioneered this concept in miniature. I 
have a 10-person Active Response Corps, and my folks have been 
to Lebanon, to Darfur, to Eastern Chad, to Nepal, to Sri Lanka, 
to Haiti, to Kosovo. We have been to the places where the chips 
are on the table.
    And when people sign up for the Active Response Corps, they 
understand that they will be going at times in harm's way, this 
is part of the pitch, and if people choose not to go, then 
there are penalties. The penalties are being fired. Penalties 
are being forced to pay for any training that they may have 
received. So we believe that this system will work at putting 
State Department and other civilians into the world's wild 
places to our advantage.
    Mr. Akin. It seems to me to be odd to hear you say it is 
the same team that could go to all those different places. I 
would think you would have people that are sort of both 
language-wise, but also culturally very attuned to a more 
specialized block of countries, instead of having somebody that 
is supposed to speak 100 different kinds of languages. Am I 
missing something?
    Ambassador Herbst. Well, right now, you would say that I 
have a boutique capability. Ten people are interesting, but not 
much more than that. With 10 people, there are limits to what 
you can do.
    But if we create a corps of 250 of the Active Response 
Corps, and then the standby and the Civilian Reserve Corps, 
first, we will find a number of people have many of the 
languages that we will need. Second, but more importantly, we 
will be training, besides the experts to go out, people who 
have functional skills that we need, police skills, lawyering 
skills, engineering skills.
    We will couple them with area experts, with language 
experts. So, when we send a team to Haiti, they will include 
French, and not just French speakers. If we send someone to 
Afghanistan, they will speak Dari as well as having functional 
skills, and we will be training people to operate in different 
environments.
    Mr. Akin. Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Saxton for five minutes.
    Mr. Saxton. First, let me congratulate you on endeavoring 
to fix a problem that, as you have heard us all say, we think 
is quite important.
    When we went to Iraq, the first few days of the experience 
were quite successful, and then we got into a situation that 
perhaps none of us could have anticipated or did anticipate at 
least, and during that time, it became obvious that there were 
a number of issues in Iraq that needed attention. Perhaps as 
well-intended as we were, we sent a team of folks who did not 
have all those skills. They were trained to do other things, 
and they did them very well, frankly. The Special Operations 
Command did well. The various divisions that were deployed to 
Iraq did well in doing what they were trained to do. However, 
they were not trained to stabilize the country.
    I have here a little chart that came from a joint 
publication from Joint Operations on September 17, 2006, and it 
is a model that depicts various stages of conflict, and we did 
fine. We seized the initiative, we dominated the military 
fight, and then we got to the stabilization stage and ran into 
trouble, and so the stabilization stage, I think, is what we 
are endeavoring to fix.
    Congressman Sam Farr has introduced legislation, which I 
think you are familiar with, which, frankly, I am a co-sponsor 
of, and so I think that we owe you a debt of gratitude for 
endeavoring to put together a program to plug a hole that we 
see in that phase that this chart calls stabilization because 
the real aim for us is to get Iraq back up on its feet and 
other countries that we may be involved in, like Afghanistan, 
which is also a problem, same kind of problem--different 
issues, same kind of problem.
    So I guess my question is, in a couple of minutes, which is 
all I have left really in my five-minute time, can you just 
say, in the case of Iraq, which you are all intimately and 
painfully familiar with, if your program were in place, how do 
you visualize it would be dealing with stabilization in Iraq in 
a way that would better enable us to come to Phase 5, which is 
turning it over to a civilian authority, the Iraqis?
    Ambassador Herbst. Well, it is always a little dangerous to 
address hypotheticals, Mr. Congressman.
    And thank you for your kind remarks.
    But let me just make a few general points. If we had at the 
time of our operation in Iraq the capability that we want to 
create in this Civilian Stabilization Initiative, we would have 
been able, one, through the Interagency Management System to 
draw up a plan of civilian operations that were completely 
linked with the military plans so that from the moment the 
military engaged, civilians would have either been alongside of 
them or ready to move shortly after they had won the military 
battle.
    We would have a single command-and-control structure for 
civilian operations overseeing all aspects of civilian 
activities so they would be responsible, for example, for all 
civilians on the ground, the contractors as well as the members 
of the U.S. Government. They would be overseeing those 
contracts that the contractors are performing. There would have 
been a single address for all civilian activities ensuring that 
there was no duplication of activities and no operations at 
cross-purposes.
    We also would have, if we had in place the people we are 
asking for in the Civilian Stabilization Initiative, been able 
to put into the field, into Iraq, within 60 days of a decision 
anywhere from 900 to 1,200 people to man this command-and-
control structure. They would have been able to begin 
operations immediately alongside, if it seemed prudent at the 
time, their military partners.
    What that would have done for the outcome is difficult to 
say, but that is what we would have had, and this is the 
capability that we are offering you or asking for your support 
to help us build, and I do not have any doubt this will make 
our future endeavors, if we find ourselves in similar 
situations, more successful.
    Mr. Saxton. Mr. Chairman, if I could have just one follow 
up?
    You have talked a lot about partnerships, and I think that 
is a good concept. But somebody has to be in charge. Who is in 
charge of the partnerships?
    Ambassador Herbst. Well, the way we have structured this in 
the Interagency Management System, you would have an 
interagency group at the lower policy level co-chaired by the 
regional assistant Secretary of State, his or her counterpart 
at the NSC, and the head of my office.
    But point of fact, any serious decisions regarding a major 
operation would be made at much more senior levels. This group 
would then have responsibility for overseeing the 
implementation of that, and chances are that oversight would 
fall to my office as an implementer. We would not be running 
policy. We would be overseeing implementation, and you would, 
therefore, have one-stop shopping when it comes to getting 
questions asked about how implementation is proceeding.
    Dr. Snyder. Mr. Kline for five minutes.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    I just came back from Afghanistan a week ago today, and 
what I heard is being echoed all over this place from 
tremendous American leaders, military personnel saying, ``We 
need civilians.'' We need farmers for one thing, people who 
understand agriculture, understand processing, shipping, 
marketing, and all those sorts of things. So the need is 
urgent, and the cry is loud, and it is way past time to start 
doing something about it. So I applaud the efforts being made 
here.
    But I also remember 20 years or so ago when I was still in 
uniform and we had Goldwater-Nichols, and we decided to do 
joint and be able to operate, have Joint Operations and 
``interoperability'' was a big word. Frankly, that was a very 
painful exercise for those of us in uniform. If it had not been 
for statute, we probably would not have done many of those 
things. It included orders to places we had not wanted to go to 
before, going to schools, making the schools joint, all sorts 
of things, getting to be Joint Specialty Officers (JSOs) and 
all of that.
    One of those things, clearly, that I think has made a 
difference and where the Department of Defense and the military 
services have been able to do as well as they have in meeting 
responsibilities besides warfighting, besides shooting has come 
because of the terrific education system that we have. The war 
colleges, all of them, have done a fabulous job. There has even 
been sort of token representation from some people in civilian 
attire, very small numbers, but we are always glad to have them 
there, and with some of the faculty, you have some expertise in 
areas besides the uniformed services.
    My point is I think that has been an important part of the 
interoperability and the success that the uniformed military is 
having, and if we are going to have this sort of success in 
this interagency operation, I just wonder are there discussions 
between the departments, within the departments, within State, 
within other agencies about such an education system that would 
bring others up to that same level of understanding, either one 
or both of you?
    Ambassador Herbst. There is no question that one of the 
reasons why the Pentagon produces outstanding leaders is that 
they have the personnel that can take time off from doing jobs 
to go into training, and they have excellent courses at the war 
colleges.
    Mr. Kline. Excuse me. If I can interrupt for just a minute, 
I would just throw out here that during those early days, 
particularly in the late 1980's and early 1990's, there were 
members of the services--I would just pick on the Navy in 
particular--who said, ``We do not have time to do that. We 
cannot take time off from our regular job. We have to run 
ships, and we have to do other things.'' So I do not know if I 
am detecting a resistance, ``We do not have the time to do 
that,'' in civilian attire, but I will just tell you that the 
military services felt like they did not have time to do it 
either.
    So I am sorry. Back to you.
    Ambassador Herbst. You detected something that was not 
there.
    Mr. Kline. Oh, good. I am glad to hear it.
    Ambassador Herbst. The point that I started to make was 
that the Pentagon is sufficiently staffed with people so that 
they can take time off from their jobs and go to the war 
colleges, and they have someone else to do their jobs while 
they are away, and, in fact, going to the war college is an 
important part of their professional advancement, something 
they have to do in order to rise in the ranks.
    Mr. Kline. Exactly.
    Ambassador Herbst. In the State Department, we do not have 
the number of people we need in order to take that time off, 
and, in fact, that is one of the reasons why in this year's 
budget request we have asked for an increase in State 
Department personnel to give them time so that they could take 
time off to do the war college and, for that matter, to do 
language training.
    By the way, this is not my area of responsibility, but I 
happen to know a little bit about it.
    So we get the concept. We need the resources in order to do 
it the right way. That is point one.
    Point two: In the little area that I am responsible for, we 
get the notion that training is critical. It is critical in 
part but not only because we are teaching skills which people 
who join the State Department have not necessarily acquired 
before they signed up.
    But one thing my office does well by State Department 
standards is planning. We still have a way to go to match our 
military planners, but we are getting stronger by the week. 
That is a skill that we are teaching our fellow officers at 
State. We have created training courses which include planning, 
which include interoperability with other agencies, including 
with the military, and anyone who signs up to work at my office 
takes those courses. For that matter, some staff members in 
Congress have taken those courses--they can vouch for their 
utility--as have many soldiers--people going off to Iraq and 
Afghanistan have taken them and have welcomed these courses--as 
have foreigners, part of our reach-out.
    The point is we get this. We get this.
    In order to do it right, though, we will need more 
resources. The Civilian Stabilization Initiative includes 
several million dollars--I can give you the exact figure, but I 
do not have it off the top of my head--for training. If we 
approve the initiative, we are going to need to train within a 
few months 44,250 people.
    We will do that by using the Foreign Service Institute, by 
using our friends in the military, the Army War College, Joint 
Forces Command (JFCOM), and so on in order to give these 
thousands of people the necessary training they need to be able 
to go into a difficult unstable environment.
    Mr. Kline. Okay. Thank you.
    Dr. Snyder. Mr. Hayes.
    Mr. Kline. I am sorry, Mr. Chairman.
    Dr. Snyder. We will go to Mr. Hayes and then to Mrs. Davis 
and then to Mrs. Gillibrand.
    Mr. Hayes for five minutes.
    Mr. Hayes. Thank you, Mr. Chairman.
    And, Mr. Vickers, I enjoyed being with you Friday.
    What guidance has been given to the combatant commanders on 
pinpointing and prioritizing our stabilizing stability 
operations and what sort of list has the Office of the 
Secretary of Defense (OSD) developed that relates to these 
priorities?
    Mr. Vickers. Well, we started in this area in 2005 with DOD 
Directive 3000-05, which is military support for stability, 
security, reconstruction, operations, and then the Quadrennial 
Defense Review provided additional strategic guidance. That 
guidance in turn has been implemented in an irregular warfare 
road map and most recently in the department's strategic plan 
in the guidance for the development of the force, which lays 
out investment priorities for fiscal years 2010 through 2015 
and then looks out 15 years beyond that.
    The combatant commands, as part of this process, sent in 
their integrated priority lists for capability shortfalls, a 
number of which now reflect stability operations or irregular 
warfare capabilities, with Central Command (CENTCOM) being the 
prime example of that since they have the most business right 
now. But all the combatant commands basically are stepping up 
in this area.
    One final point, to shape our capabilities in this area, we 
are completely revamping our defense planning scenarios. Three 
years ago--this gets into a classified area, but I will talk 
about it in general terms--we had three scenarios. None of them 
involved irregular warfare or stability operations.
    We are developing a family now, I believe, of about 15 of 
them. They span homeland defense to irregular war and stability 
ops to a broader range. There are probably six or seven or so 
that deal with irregular warfare and stability ops that then 
ought to shape the future military and, of course, how we 
interact with our interagency international partners.
    Mr. Hayes. Thank you, sir. That was not quite as specific 
as I wanted to get, but----
    Ambassador Herbst, have you talked to your folks in the 
field about the critical importance of interagency 
communications and how vital that is to the process and how 
that is being improved? Can you comment on that?
    Ambassador Herbst. Certainly it is critical. We understand 
it. Before the 82nd Airborne deployed to Afghanistan last year 
to take control of American operations in Afghanistan as 
opposed to NATO operations, we were asked by the commander to 
send a team out to improve communications among his staff, the 
Provincial Reconstruction Teams (PRTs), and our embassies, and 
we did that.
    The Interagency Management System calls for use of 
something called an integration planning cell, which would be 
deployed to the regional combatant commander in an operation 
led by American troops, by that regional combatant commander 
where there are also civilian operations, to ensure that 
civilian and military operations are completely linked up.
    So we understand that this is critical, and we have built 
this into our operations.
    Mr. Hayes. Thank you, Mr. Chairman. I yield back.
    Dr. Snyder. Mrs. Davis for five minutes.
    Mrs. Davis of California. Thank you, Mr. Chairman.
    And thank you all for being here.
    Perhaps this actually just follows, Mr. Ambassador, on what 
you said and particularly the emphasis on planning, training, 
and deploying together.
    We happened to be at Camp Lejeune yesterday, and they spoke 
of the training that the Marines will be getting before they 
deploy to Afghanistan, and I think it is the bulk of the 
Marines who will be going. I understand that Fort Bragg is 
perhaps doing some interagency work.
    When I asked the general what is going to be different 
about their training, he spoke about the cultural training and 
he spoke about the linguistic training. He did not mention, but 
perhaps it is there, that there would be this kind of 
interagency coordination going on, and if you talk to anybody 
who has been out in the field with PRTs, they will say how 
valuable it would have been had they been able to plan and 
train together.
    Are you working on this with the training of the Marines at 
Camp Lejeune specifically?
    Ambassador Herbst. Okay. We understand the importance of 
this. We have engaged in training at Fort Bragg. We and USAID 
have engaged along with the military at Fort Bragg, but we have 
not been engaged at Camp Lejeune. It is something we will look 
into, and if we can make a contribution, we would be happy to.
    Mrs. Davis of California. I hope you would consider that 
because----
    Ambassador Herbst. Okay. I will definitely look into it.
    Mrs. Davis of California. It seems like it works, and into 
everything that you have been saying, and if there is something 
that Congress can do to be helpful, if there is authority that 
you need, whatever it is, it sounds like you already have it 
basically because you are doing it in other settings.
    Ambassador Herbst. We have the authority right now to help 
with training. I have a staff which can do this, but is 
actually rather small. If the Civilian Stabilization Initiative 
is approved, our staff will grow much larger and we will have 
the capability to do a great deal more.
    Mrs. Davis of California. Okay. Great. Thank you. I hope 
you will follow up on that.
    Ambassador Herbst. I will definitely follow up.
    Mrs. Davis of California. I yield back my time. Thank you.
    Dr. Snyder. Mrs. Gillibrand for five minutes.
    Mrs. Gillibrand. Thank you, Mr. Chairman.
    Thank you both for your testimony.
    Ambassador, the fiscal year 2009 budget request supports 
the recruitment, development, and training of 250 interagency 
Active Response Corps and about a 2,000-member Standby Response 
Corps. Based on last year's personnel problems and the 
Department of State requirement to fill jobs in Iraq, do you 
see this concept as viable, given that these individuals will 
likely to deploy to hostile environments?
    Ambassador Herbst. This is concept is extremely viable. The 
250 members of the Active Response Corps will be newly 
recruited from outside the government or maybe from within the 
government. We can create 250 positions, and we will be seeking 
people who have the skills necessary for use in a destabilized 
country.
    People will be hired: A, with those skills; B, with the 
understanding that they will be going into dangerous places at 
times; and, C, with the understanding that they will be able to 
make an enormous difference, including for our national 
security.
    I have done a great deal of public speaking over the past 
18 months, and I can tell you there are a lot of Americans who 
have done well in life in all the skill areas we need who are 
looking for the opportunity to make a contribution and who 
would be willing to do something, which is both very 
adventurous and maybe a little bit dangerous. So I do not have 
any doubt we will be able to find the people to fill these 
positions.
    The Standby Response Corps will be made up of people who 
are currently in the government. We will need 2,000 of those. 
That will, frankly, be a little bit more difficult than finding 
250 among the whole American public, but I believe there, too, 
we have done a great deal of work interagency, reaching 
agreement on those numbers. We will be using as part of this 
corps our Foreign Service nationals in the State Department and 
USAID, people who are actually doing very good work right now 
in Iraq and Afghanistan, and I think we will be able to come up 
with 2,000 members of this. And also we have to find 2,000 
members of the Civilian Reserve Corps. Drawing upon 300 million 
Americans, it is eminently doable.
    So there will be some glitches in the system, but the 
people are out there with the skills, with the enthusiasm, with 
the patriotism. This is an eminently doable project.
    Mrs. Gillibrand. But why do you have such confidence 
because, obviously, we have been trying to staff these PRTs for 
a while, particularly in Afghanistan, and what we have heard 
from the military is that they are largely staffed by military 
personnel still. In your memo that is attached to your 
testimony, it says, ``This strategy works to ensure that the 
United States is ready to meet the next crisis, bringing all 
necessary expertise to bear.'' Is it your intention that this 
will actually take time and not be useful for Afghanistan or 
Iraq?
    Ambassador Herbst. If our budget request is approved, say, 
in January of next year, then by May or June of 2010, the 
capability I have described or my testimony describes would be 
up and running.
    Mrs. Gillibrand. By 2010?
    Ambassador Herbst. It will take us 15 months, 18 months to 
do that. Far be it from me to play prophet. So, if you think 
that we will be in Afghanistan or in Iraq in a major way at 
that time, we will have a capability that could be used for 
those operations in 2010.
    Mrs. Gillibrand. And what would your intention be for long-
term sustainability of these two new organizations? I mean, is 
your goal to integrate this into both the State Department and 
military portfolio? How would they work together?
    And, obviously, if you are going to be sending these folks 
to war zones, they are going to have to have some kind of 
protective training, unless you intend to staff all of these 
teams with military personnel to protect their work?
    Ambassador Herbst. People who sign up for this will 
certainly be trained to operate in hostile environments, and 
there will need to be some form of security for them. They will 
also be trained to operate as an interagency team. It will be 
under the Secretary of State because that is what National 
Presidential Security Directive 44 says, but my office already 
has a sharp interagency flavor, and that flavor will only grow, 
and people will be used to operating as an interagency team 
because that is the only way we can be effective in these 
environments.
    We will find these folks. It will be a sustainable 
capability. For example, in the Active Response Corps, we 
believe, we can keep 80 percent in the field at any one time. 
Then we will see that 20 percent as people coming in and coming 
out of the corps.
    The Standby Response Corps is a little bit more difficult 
to put out in the field because these are people who have full-
time jobs, so we are only counting on right now being able to 
deploy 10 percent of them at any one time, but we feel we 
should be able to work up to 25 percent, but no more.
    Mrs. Gillibrand. That seems like a relatively small number. 
For example, if we just look at the work that is needed done in 
Iraq and Afghanistan today, that seems very small, and one of 
the things this committee has looked at under the chairmanship 
of Ike Skelton is renewed view of roles and missions and what 
could we be doing to think outside the box about how we grow 
our military to be more effective.
    And one of the discussion points that we have talked about 
is doing exactly what you are doing here, but on a much larger 
scale and actually training National Guard and Reserve to do 
some of these stability missions so that we have an ongoing 
force that is significant to handle not only issues in Iraq, 
Afghanistan, or elsewhere, but also in the U.S. if we have a 
terrorist attack here in the U.S., should we have national 
disasters in the U.S., where you actually need the complement 
of ability and training to do stability and reconstruction.
    And so I see this as a wonderful idea, but it sounds like 
it is going to take a very long time to put in place, and it is 
going to be quite small. My concern is it is not enough of what 
really needs to happen to keep America safe.
    Dr. Snyder. Ambassador Herbst, if I might, why don't we 
move to the next panel since that time period is up, and I 
think there will be opportunities to amplify on this.
    Ambassador Herbst. So I should or should not answer the 
question?
    Dr. Snyder. Let's not answer that one right now. I think, 
given the late hour, what I would like you to do, Secretary 
Vickers, Ambassador Herbst, if you can kind of slide on down to 
your all's right--and I also realize that I had neglected to 
formally introduce you.
    Honorable Michael Vickers, Assistant Secretary of Defense 
for Special Operations/Low Intensity Conflict and 
Interdependent Capabilities in the U.S. Department of Defense.
    Ambassador John Herbst, coordinator for reconstruction and 
stabilization, U.S. Department of State.
    You will now be joined by Rear Admiral Dan Davenport, 
director of the joint concept development and experimentation, 
U.S. Joint Forces Command; Brigadier General Robert Holmes, 
deputy director of operations, U.S. Central Command; Lieutenant 
General Frank Kearney, deputy commander, U.S. Special 
Operations Command; and Colonel Joseph Osborne, director of 
irregular warfare directorate, U.S. Special Operations Command.
    What we will do is have--I think we have three opening 
statements--you all come on forward to your assigned pew there, 
if you would please.
    It is my understanding that we have three formal statements 
here. As I said before, your written statements will be made 
part of the record. As I said before, feel free to share with 
us anything you think we need to hear. You may want to err on 
the side of brevity. And then we will go to members for 
questions.
    Admiral Davenport, we will begin with you.

  STATEMENT OF REAR ADM. DAN DAVENPORT, U.S. NAVY, DIRECTOR, 
 JOINT CONCEPT DEVELOPMENT AND EXPERIMENTATION DIRECTORATE (J-
                 9), U.S. JOINT FORCES COMMAND

    Admiral Davenport. Thank you, sir. Good afternoon.
    Chairman Snyder, Chairman Smith, Ranking Member Akin, 
Ranking Member Thornberry, and members of the subcommittees, on 
behalf of General Mattis, the commander of the U.S. Joint 
Forces Command, thank you for the opportunity to appear before 
you today.
    My testimony will address the role of Joint Forces Command 
in developing irregular warfare and stability operations 
concepts and doctrine as well as our ongoing efforts to improve 
interagency integration at the strategic, operational, and 
tactical levels.
    As described in my written testimony, Joint Forces Command 
is actively contributing to the development of concepts, 
capabilities, and doctrine to improve U.S. forces' ability to 
conduct irregular warfare and stability operations and to 
integrate those operations effectively with interagency and 
international partners.
    Informed by operational analysis, lessons learned, and best 
practices from current operations, Joint Forces Command 
provides solutions and practical tools for the Joint Force 
commander in the form of doctrine, concepts, experimentation, 
capabilities, exercises, and training. These products reflect 
the evolution and maturation of military and interagency 
thought and practice.
    The intellectual underpinning of Joint Force Command's 
(JFCOM's) pursuit of irregular warfare and stability operation 
solutions and interagency advocacy resides in our joint concept 
work. Developed in coordination with the Joint Staff, combatant 
commands, and services, our Joint Operating Concepts address 
gaps in current capabilities and provide the base for 
developing solutions for the challenges we face in the future 
operating environment.
    The comprehensive approach to interagency integration is 
foundational to our concept work. JFCOM's experimentation 
program examines and validates concepts and capabilities that 
span the range of doctrine, organization, training, materiel, 
logistics, planning, and policy activity necessary to provide 
the Joint Force commander and his interagency partners the 
capabilities required.
    Irregular warfare, stability operations, and interagency 
integration are major focus areas for JFCOM's Concept 
Development Experimentation Portfolio. In fact, the largest and 
most complex projects in my Joint Experimentation Portfolio are 
focused on these important areas.
    Joint Forces Command is committed to provide the concepts, 
doctrine, and capabilities needed by our Joint Force to 
integrate effectively with interagency partners in the 
execution of irregular warfare and stability operations. The 
continued support of the Congress and these subcommittees for 
this important work is essential to getting this right.
    My written testimony provides a detailed accounting of our 
efforts, and I ask that it be placed into the record.
    Thank you, Mr. Chairman. I stand by for questions.
    [The prepared statement of Admiral Davenport can be found 
in the Appendix on page 61.]
    Dr. Snyder. Thank you, Admiral.
    General Holmes.

   STATEMENT OF BRIG. GEN. ROBERT H. HOLMES, U.S. AIR FORCE, 
      DEPUTY DIRECTOR OF OPERATIONS, U.S. CENTRAL COMMAND

    General Holmes. Thank you.
    Chairman Snyder and Ranking Member Akin, members, today, I 
will provide a brief description of Central Command's 
organizations and activities that partner across the 
interagency as we plan to conduct lines of operation associated 
with irregular warfare and stability operations.
    You have my written testimony, and I ask that it be 
submitted for the record, but if I may take just a few minutes 
to hit some high points from that----
    In three headquarters organizations--first, the Joint 
Interagency Coordination Group and then the Effects 
Synchronization Committee and then an emerging Irregular 
Warfare Fusion Center--Central Command fosters horizontal and 
vertical integration of not only our component warfighters' 
activities but with other interagency instruments of power.
    Now this includes the kinetic combative effects that you 
would expect with traditional military operations, but very 
importantly goes beyond that, as it includes governance, 
information, economic development, law enforcement, threat 
finance, as well as societal and cultural development, all of 
the elements of irregular warfare, as they are outlined in the 
Department's Joint Operating Concept for irregular warfare, and 
I intend to make these injects, these lines of operation, as 
they are described in that, as part of CENTCOM's review to 
Assistant Secretary of Defense (ASD) Vickers and his team as 
they draft a new irregular warfare directive.
    In all of this, the overarching importance of strategic 
communications cannot be overstated. In addition to these three 
organizations that I have named, we have three tactical level 
activities, some of which have been mentioned here particularly 
by Chairman Smith earlier. They are classified within our 
component organizations, and I would be glad to discuss those 
in a classified forum.
    The battlefield lessons of the last five years demonstrate 
that conventional military operations are but a single 
component in a vast array of capabilities that are available to 
the United States Government to defend our national security 
interests. The threats that we face in Central Command, as we 
see them, present themselves as networks of violent extreme 
actors which are linked and networked beyond CENTCOM's regional 
boundaries and authorities, thus making us look to the 
interagency for solutions.
    These threat networks are agile and adept, utilizing 
asymmetric means to attack our strengths. To counter these 
threats and asymmetric attacks, we envision, if you will, an 
effective blue force network to achieve unity of effort and 
purpose across the entire United States interagency and that of 
our allies, with an aim to foster a blue force network, if you 
will, to prosecute rapid cross-functional integration across 
the array of interagency capabilities and thus maximize the 
effects of an irregular warfare campaign.
    The hostile threats that we see went to school in the 
teachings of Tsun Szu and Mao, and it is clear in those 
teachings that the key to learning is hearts and minds. So it 
is clear to secure this terrain, the hearts and minds of the 
military instrument of power in and of itself would not be 
sufficient.
    We have achieved success in the security line of operation 
against mid- and senior-level al Qaeda, Taliban members, in 
Iraq, Afghanistan, and Pakistan, but to secure these kinds of 
gains, we must sustain and refine Central Command's interagency 
relationships and capabilities.
    The Joint Interagency Coordination Group formed in 2001 as 
a multifunctional advisory and coordinating element works 
across all directorate lines at the headquarters and that of 
our components and with our interagency partners to access 
capabilities and resources to carry out CENTCOM's operations 
and plans.
    The Effects Synchronization Committee is our means to 
operationalize these interagency activities. So we have 
coordination, but we must operationalize into our planning and 
campaign structure. Recent successes of this committee include 
executive orders to prosecute action with regard to threat 
finance, and I can go into a number of those, if you would 
choose, later.
    Other Effects Synchronization Committee actions include the 
criminalization of former regime elements in Iraq and high-
valued individuals across our theater in operations combating 
terrorism. Additionally, this committee has been able to bring 
about special actions against the violent extreme media 
outlets.
    So, in conclusion, the interagency collaboration of the 
past five years has matured to a point where we now need to 
establish an Irregular Warfare Fusion Center. It is our next 
logical step so that we can focus our interagency integration 
to current and future needs. This Fusion Center, this Irregular 
Warfare Fusion Center, will, in fact, be an engine room for 
developing concepts of operation for irregular warfare and 
become a focal point for persistent, coordinated, and 
synchronized efforts to prosecute irregular warfare, but more 
importantly to identify the measures of effectiveness so that 
we can gauge our success.
    In all of this, we energetically support ASD Vickers in 
developing a new policy for the department in irregular 
warfare.
    Thank you for this opportunity today to share these views.
    [The prepared statement of General Holmes can be found in 
the Appendix on page 72.]
    Dr. Snyder. Thank you, General Holmes.
    General Kearney.

    STATEMENT OF LT. GEN. FRANK KEARNEY, U.S. ARMY, DEPUTY 
           COMMANDER, U.S. SPECIAL OPERATIONS COMMAND

    General Kearney. Chairman Snyder, Chairman Smith, 
Representative Akin, and distinguished members of the 
committee, thanks for the opportunity to discuss U.S. Special 
Operations Command's (USSOCOM's) role in irregular warfare as 
well as interagency coordination and strategic communications.
    USSOCOM's mission, as you well know, is to provide fully 
capable Special Operations Forces to defend the United States 
and its interests and to synchronize the Department of Defense 
operations against terrorist networks. Our implementation of a 
global synchronization process is a continuous systematic 
program that fuses the efforts of the combatant commanders, the 
Department of Defense, the interagency, and our key allies.
    We have established a standing interagency task force with 
USSOCOM members and representatives of 12 interagency partners, 
linking knowledge with decision makers. Many recognize that the 
ongoing struggle against extreme terrorist organizations cannot 
be won strictly through military means. Our Nation's success is 
dependent on the efforts of the interagency team.
    Today's threat is complex and patient. To overcome our 
enemies, we pursue two mutually supporting and often 
intertwined approaches: direct and indirect. These approaches 
integrate the requirement to immediately disrupt violent 
extremist organizations while positively impacting the 
environment in which they operate.
    The indirect approach addresses the underlying causes of 
terrorism and the environments in which terrorism activities 
occur. The indirect approach requires more time to achieve 
effects, but ultimately will be the decisive effort. This is 
where irregular warfare actions become crucial.
    Irregular warfare encompasses many of the activities 
normally associated with those found at the low end of the 
warfare spectrum. It requires getting out and influencing 
people by engagement and building relations. It is both 
offensive and defensive in nature. It necessitates a whole-of-
government awareness that everyone is a participant, that no 
one is a spectator. That type of strategic engagement is 
protracted and must be conducted using regional and global 
campaigns designed to subvert, disrupt, attrit, and exhaust an 
adversary and prevent instability from occurring.
    While opportunities to push critical United States 
Government messages abound, many challenges make these efforts 
more difficult than they initially appear. Additionally, the 
network asymmetric enemy we face transcends geographical 
boundaries so commonly used by the U.S. Government to assign 
communication responsibilities and deconflict the same.
    Effective strategic communications represents a defining 
characteristic in the direct approach that is critical to 
irregular warfare. Deeds in synchronization with words are at 
the core of this approach. This is the mindset that has 
historically allowed Special Operations Forces to gain access, 
build relationships, foster influence, and legitimize our 
partners by us being true partners.
    This is also the same mindset that is taking hold in the 
rest of the Department of Defense. Indirect activities, such as 
foreign counterpart training, civil military operations, 
information distribution, infrastructure development, and the 
establishment of medical, dental, and veterinary clinics, are 
now commonplace in our conventional forces operating in Iraq 
and Afghanistan.
    The need for a unified U.S. Government message which is 
synchronized across the enterprise is clear. The role of the 
Department of State as the lead strategic communicator with DOD 
support is clear. Despite the absence of any compelling 
structure for integration, there is positive movement in this 
direction.
    I thank the distinguished members of the committee for your 
role in helping us achieve continued success and enabling us to 
protect our Nation, and I appreciate the opportunity to be here 
with you today.
    Dr. Snyder. Thank you, General.
    Is Colonel Osborne going to make a statement or----

   STATEMENT OF COL. JOSEPH E. OSBORNE, U.S. ARMY, DIRECTOR, 
 IRREGULAR WARFARE DIRECTORATE (J-10), U.S. SPECIAL OPERATIONS 
                            COMMAND

    Colonel Osborne. Chairman Smith, Chairman Snyder, Ranking 
Member Akin, distinguished members of the committees, I am 
honored to be here today to report to you on the continuing 
efforts of the U.S. Special Operations Command to move the 
irregular warfare concept to a full-scale capability for our 
command, the department, and our Nation.
    I have submitted a statement for the record, but I would 
like to forego reading the bulk of that to the committees and 
instead provide some brief opening remarks on the broader 
context of irregular warfare.
    For USSOCOM, irregular warfare is deeply ingrained in our 
history, culture, and collective experience. For this reason, 
we assumed the leading role in the development and publication 
of the Irregular Warfare Joint Operating Concept following the 
2006 Quadrennial Defense Review. Key in understanding this 
concept is the recognition that the center of gravity has 
shifted from targeting an adversary's military forces or 
government to influencing populations. While the term ``winning 
hearts and minds'' seems trite, in the case of irregular 
warfare, it is not far off the mark.
    In order to maintain the momentum in irregular warfare 
planning and policy development, the commander of USSOCOM, 
Admiral Eric Olson, established an irregular warfare 
directorate designated at the J-10 in June, 2007. We reached 
our initial operating capability in October of last year, and 
we continue to expand our capabilities. We work closely with 
and through the Office of the Assistant Secretary of Defense 
for Special Operations and Low Intensity Conflict and 
Interdependent Capabilities to support DOD's efforts to develop 
and integrate the concepts, capabilities, and capacity 
necessary to wage protracted irregular warfare on a global 
scale.
    I would like to thank the distinguished members of the 
subcommittees for the opportunity to be with you here today and 
discuss this very important topic. This concludes my remarks. I 
am prepared to answer any questions.
    [The prepared statement of Colonel Osborne can be found in 
the Appendix on page 79.]
    Dr. Snyder. Thank you.
    I will now ask questions under our five-minute rule.
    I think I will take it off specifically the written 
statement that you, General Kearney and Colonel Osborne, 
provided in which you state--I am reading on page six--``Much 
of the cooperation is initially based on personal 
relationships,'' and then it goes on to say, ``In short, our 
success in interagency integration requires constant monitoring 
and attention.''
    My question is, if I am a combatant commander today and I 
decide that I need a brigade combat team with a full complement 
of skills, not just military, but all the kind of necessary 
civilian expertise that we have been talking about here today, 
what structure is in place today to ensure that when that 
brigade combat team arrives, the civilian personnel are there, 
that I, in fact, have the skill sets that I think are required? 
And then I would like you to contrast that today with what you 
think it ought to be and any comments that any of you have 
about that.
    General Kearney. Thank you for the question, Chairman 
Snyder.
    Dr. Snyder. My point of that is if I am the combatant 
commander and I decide I need something, I do not have time to 
develop personal relationships. We need a structure that 
ensures that I have the skill sets I need.
    Go ahead.
    General Kearney. Right. The structure in the brigade combat 
team, as you well know, does not have those additional adjunct 
capabilities that are required. The combatant commander would 
then go back through the Secretary of Defense, and he would ask 
for those capabilities from our interagency partners and 
identify the skill sets and the capability gaps that he needs 
to work those.
    If the situation was a crisis situation, we would take the 
assistance that we have, we would work with the country team 
that is there, and we would begin to move forward based on what 
relationships the combatant command has and has historically 
executed. If we have time to train--and we have become very, 
very effective in this in our pretraining operations to bring a 
unit forward--we normally bring them in at our pre-readiness 
exercise before deploying, and we can do that. But there is not 
currently a structure that partners interagency folks with U.S. 
brigade combat teams in order to rapidly give you that fused 
team that we do through relationships now.
    Now, in many of our commands, we have had a long-term 
historical relationship with interagency partners. In 
particular in some of our Special Operations organizations, and 
the history that we have today with seven years of combat, we 
have begun to build those relationships. So very much so folks 
know who to go and ask for by name that they have worked with 
over time.
    I think that General McCrystal would tell you from Task 
Force 714 that one of his major efforts underway is to 
professionalize the force, and that is exactly what he is 
trying to do, is build those long-term relationships through 
habitual assignments.
    Dr. Snyder. My follow up would be going back to when I cut 
off Mrs. Gillibrand in discussion with Ambassador Herbst, and 
Ambassador Herbst and I have had this discussion at previous 
hearings. The structural changes that you all are talking about 
are for future crises, and you are not satisfied. You just went 
through a series of things. We will begin moving forward. Well, 
you know, we have already gone through that, and we had a very 
unhappy Secretary Gates testifying here, sitting right there, 
about how dissatisfied he was with the responsiveness of the 
current system.
    This is like five years after we were in Afghanistan. So we 
do not have a system. We are not talking about something for 
future conflict, when we have been at least in Afghanistan 
since 2001. So you are not satisfied with what you describe? Is 
that a fair statement?
    General Kearney. Absolutely not, Mr. Chairman.
    Dr. Snyder. Secretary Vickers, Ambassador Herbst, do you 
have any comments on the issue? I am talking about the person 
on the ground who thinks they needs skill sets and what system 
do we have today versus what we think we ought to have for 
getting them.
    Mr. Vickers. We have a ways to go, Chairman Snyder. We are 
making some steps. For instance, we have shifted our civil 
affairs, which is military analog in terms of capabilities, of 
some of the civilian capabilities we need to build in other 
government departments and agencies. We are partnering one 
reserve civil affairs brigade with each BCT, brigade combat 
team, and the Marine Corps and Navy are expanding their civil 
affairs capabilities as well.
    As you know, in Afghanistan, on an ad hoc basis, we now 
have embedded PRTs with the BCTs as well, forming 
relationships, but we need to institutionalize these 
capabilities and develop more habitual relationships, as 
Ambassador Herbst's capabilities come on stream.
    Dr. Snyder. Ambassador Herbst, I do not have much time. If 
you would err on the side of brevity here, but respond to me 
and to Mrs. Gillibrand's comments before.
    Ambassador Herbst. Respond to you?
    Dr. Snyder. Yes. And Mrs. Gillibrand was on the same thing 
about future.
    Ambassador Herbst. The point is very simple. Our office 
would not exist if we did not realize there were inadequacies 
in the way we are responding, and we represent a way to solve 
the problems we have been identifying.
    Thank you.
    Dr. Snyder. Mr. Smith for five minutes.
    Mr. Smith. Thank you, Mr. Chairman. I actually think I have 
probably more than five minutes worth of questions and answers, 
but I will live with the five minutes and I may have a follow 
up at the end if we do not have too many members here.
    I think from what we have heard from all of you, the Joint 
Operating Concept and Directive 44 and what is going on with 
that, sounds promising, but seems more of a crisis response 
setup, and it seems sort of focused on Afghanistan and Iraq. 
You know, we were not ready when we had to go in there and do 
that. You know, how can we get ready for those two and be ready 
for the next one? I think that is fine. I think it is 
definitely something that we will need to beef up as many 
members and all of you have pointed out as well in terms of 
resources and so forth.
    But what I am really looking for is a more comprehensive 
strategy that does not wait for the crisis, and I would 
recommend to you something the Brookings Institution put out 
this morning. We did a little conference on the release of the 
report on failed states, which is an incredibly comprehensive 
analysis of, I think, over 100 countries and their various 
level of failure in four different areas--economic, political, 
security, and also social welfare--that gives sort of a 
blueprint of where our problems might crop up and how we might 
get in front of them.
    And if you can dovetail that over, you know, where is al 
Qaeda operating, where are they spreading their message, then 
that feeds back into the strategic communications piece of, you 
know, how are we countering that message, what is the message, 
how are we countering it. That, I think, is the kind of 
comprehensive approach we need.
    I mean, once you get to the state where you are at in Iraq 
and Afghanistan--it has to be done, no question. We have to 
dive in there and work at it--I think you would all agree, 
having been there, it gets real difficult, you know, once the 
existing structure has been blown up and conflict reaches that 
level.
    And we have to do it, but if we do it in a more 
preventative manner, I think we can be far, far more 
successful, and toward that end, I guess the first question I 
have is--there are a lot of resources involved in that sort of 
development effort, and I am wondering about the possibility of 
leveraging non-governmental organizations (NGOs) and public-
private partnerships. I have talked to some of you about this 
before.
    Obviously, on the strategic communications piece, you know, 
we have to do that with the government. We cannot be 
envisioning some NGO that we try to enlist as our propaganda 
tool. That would undermine their mission. It would not 
successfully deliver ours.
    But if you are looking at a failed state, if you are 
looking at the type of reconstruction we are talking about--and 
there are organizations out there that are building schools, 
that are providing health care--leveraging those dollars would 
make an enormous amount of sense. Now that is difficult in 
Afghanistan and Iraq because a lot of those people have been, 
you know, kidnapped or killed and they have been a little 
discouraged. It is going on, certainty in Afghanistan, less so 
in Iraq.
    I am curious what your experiences have been in those two 
places and what you might think about better leveraging those.
    And, Mr. Vickers, I do not know if you want to start out 
and then anyone else who wants to dive in.
    Mr. Vickers. To the general point about strategy, you are 
absolutely right that the way we believe we will win the war on 
terror is through steady-state continuous operations that 
prevent crises from developing by shoring up our partners, 
through a full range of national instruments, rather than 
responding to acute crises when they develop.
    Now we need to have these response capabilities, no 
question, but we believe most of our successes around the world 
will come from prevention and, accordingly, we are shifting 
resources in the Department from responsive capabilities to 
more proactive, and that cuts across irregular warfare and 
stability operations, from counterterrorism to train, advise, 
and assist versus large-scale counterinsurgency, a number of 
efforts I could go into in more detail.
    But you are absolutely right about the strategic 
comparative of doing so.
    Mr. Smith. Thank you.
    Does somebody else wish to take a crack at it, jump in?
    General Kearney. Chairman Smith, one comment: We work right 
now at SOCOM in a nascent relationship with the business 
executives for national security who have actually come to us 
and talked to us, a wide group of businessmen that have 
interests in the security of the United States, but would like 
to take their access and their abilities for many reasons, not 
just as good patriots, but also because there is a market, 
there is opportunity out there for them, and so we are bringing 
them in and taking a look inside of SOCOM now at how we can 
work with that group in particular and then others like it to 
help them come in and help us do our job better.
    Mr. Smith. All right.
    General Holmes. Chairman Smith, if I may just for a moment, 
as we look forward into the future and work past Iraq, past 
Afghanistan, in Central Command, we are seeing the need for a 
comprehensive theater campaign across the framework of Theater 
Security Cooperation that uses the interagency. One thing that 
we are doing with our Effects Synchronization Process is to 
bring those irregular elements, non-traditional elements, of 
the instruments of power into our traditional planning process 
to do just that for the long haul.
    Mr. Smith. And I will follow up just quickly and sneak my 
last question in here. It is a more specific question. It 
follows up a little bit on this, and this has to do with the 
deployment of the Special Ops Forces, and I am interested in 
Mr. Vickers' standpoint and also General Kearney's, and that is 
the idea of forward deployed versus being deployed back closer 
to home.
    Now, obviously, there are several levels to this, and the 
biggest point here is most of the SOCOM guys I talk to, you 
know, they want to be closer to the populations they are trying 
to work with because they are a key piece of the irregular 
warfare that we are talking about here, work that is going on 
in the Philippines and Africa and a bunch of other places that 
are developing relationships with the population.
    Now, obviously, this means more than just, you know, where 
they are currently deployed overseas, which are not necessarily 
the hotspots. What are your thoughts in terms of the forward 
deployed versus being back here and then sending them out?
    Mr. Vickers. The broad strategic shift we are trying to 
make for the war on terror with our SOF posture is to go from 
episodic presence around the world to persistent presence. 
Doing that, of course, requires more capacity, ability to 
integrate better with the existing structure the U.S. 
Government has overseas, and then a balance between forward 
station forces, which, again, may not be forward based in just 
a region, but specifically in 59 some plus Global War on Terror 
(GWOT) priority countries while supplementing that with 
rotational forces, and that mix is something under study.
    If we went all the way to rotational forces, it would be 
more expensive and hard to get the persistent presence that you 
get from, say, as our State Department colleagues and agency 
colleagues do, living in a country for a period of time and 
developing those relationships and language skills. On the 
other hand, the rotational capability gives the combatant 
commanders flexibility to move quickly across a GWOT area.
    So there is a balance that is needed there, and it is 
something that we are continuing----
    Mr. Smith. And you do not have a set plan right now? That 
is still something you are----
    Mr. Vickers. We are developing a plan and, of course, as 
you know, 80-some percent of our forces are currently engaged 
in Iraq and Afghanistan----
    Mr. Smith [continuing]. Which makes it difficult.
    Mr. Vickers [continuing]. Which is why we need to grow the 
force, growing various parts of the U.S. Government, to meet 
what we see as the future demand.
    Mr. Smith. Great. Thank you.
    General, do you have anything to add to that?
    General Kearney. Yes, Chairman Smith. We are right now 
finalizing what we call the global SOF posture, which is 
exactly what you are referring to, our deployments worldwide 
and where we would sit permanently, and, as Secretary Vickers 
has said, where we would have a rotational presence.
    We are due to present that back to the Joint Staff in 
March, and we continue to come back, and the key principles are 
exactly as you have said, persistent forward presence with the 
right people at the right place to build those relationships, 
and I think what you will find is that in each geographic 
combatant commander's Area of Responsibility (AOR), we will 
probably have a different approach based on the ability to be 
there, our access, and our ability to get to where to where we 
need to go and overcome the tyranny of distance, yet balance 
the deployment of the force away from their families and where 
they need to be.
    But we have that on the plate. Admiral Olson is digesting 
that now, and we are making the final fine tunes before we come 
back to the Joint Staff and the Secretary of Defense on what 
that will look like.
    Mr. Smith. Great. Thank you.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Akin.
    Mr. Akin. Thank you, Mr. Chairman.
    Just a quick question along the same lines as a couple of 
my previous colleagues were asking, and that is, obviously, it 
is a lot cheaper if you can work on a more preventive side, and 
I assume that special operators have been doing that for some 
long period of time. What is the shift? Is it more from a 
continuous presence to just go in and take out-one particular 
problem? Is that how the new system is supposed to operate?
    And, also, what is the change particularly with Directive 
44 in terms of the decision of when you make preemptive kinds 
of moves within a country. Is that mostly done in a joint 
context with the leadership of that country? If you could just 
develop that little bit.
    Mr. Vickers. Well, I will start, and then I think 
Ambassador Herbst will want to talk about National Security 
Presidential Directive-44 (NSPD-44), but the shift to more of a 
preventive or proactive posture has to do more with having 
persistent presence in more places than we have had before and 
trying to be proactive, for example, about counterterrorism, 
rather than being reactive. Rather than waiting for terrorists 
to do something and then responding to it, we are out trying to 
deal with them.
    A large part of this preventive posture is really building 
the capacity of our international partners. The war on terror 
absolutely requires that. It requires the U.S. Government 
harnessing its instruments with our other partners to support 
the security of a number of countries around the world, and 
that is really how prevention would take place, by bringing 
these various instruments, development aid, political 
development, security assistance, focused on trying to prevent 
insurgencies from ever starting in the first place or keeping 
them at very low levels.
    Ambassador Herbst. I would endorse what Secretary Vickers 
said. You might say there is a military and a civilian 
component to preventive measures, and most of the measures 
would be on the civilian side, and there you are talking about 
most effectively doing this work with a civilian capacity, and 
the capacity we are trying to grow would enable us to put 
dozens or even hundreds of people on the ground, civilians on 
the ground, to do preventive work, and we have devoted a great 
deal of attention to prevention.
    Mr. Akin. I just got back from a visit to Japan and South 
Korea, had a chance to talk to that shy and retiring General 
Bell, and he had his ideas about the importance of having 
basing on the continent there and an overall perspective. It 
seemed to me that just as dealing with little problems, 
prevention is a good thing and working jointly with other 
countries is a good thing.
    It appeared that he was advocating the same thing to deal 
with big problems, and that was, again, that when you develop 
allies like Japan with the missile-defense destroyers that they 
are building that that also is a very good strategy, both 
financially, economically, but also in developing those 
partnerships in other countries that can have a different 
perspective in terms of dealing with things politically. They 
represent a different interest and, therefore, can sometimes 
prevail on someone to think in a certain way that we could not.
    Anybody want to comment on that?
    Mr. Vickers. I will be talking tomorrow to the Strategic 
Forces Subcommittee just about cooperative missile defense, so 
I agree fully.
    Ambassador Herbst. An important part of what my office is 
trying to do is to grow the international capability to respond 
in stabilization crises. Like you, I took a trip to East Asia--
this was last spring--to talk about cooperation with the 
Japanese, with the South Koreans, as well as with the Chinese. 
We see a great many potential areas of involvement around the 
world, and the United States is not going to do all of them or 
even most of them. We are looking for as many partners as we 
can find, and we are getting a positive response.
    Mr. Akin. Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Marshall for five minutes.
    Mr. Marshall. Thank you, Mr. Chairman. Thank you, Mr. 
Chairman. It works now.
    In an ideal world, we would not even have these hearings, 
threats would not be there, and we would not have to spend any 
money trying to address those threats, reorganize ourselves, et 
cetera. We accept that the threats that are most pressing and 
likely to be so for the next few decades for the foreseeable 
future that we are not able to address well are unconventional.
    We are not well set up to deal with world pandemics. We are 
not set up to deal with angry young men forming cells that get 
access to growingly lethal things and wanting to damage, many 
of them motivated by religion, but motivated by other things as 
well, scattered around the globe.
    We accept that climate change is going on, at least most of 
us do at this point, and that there is going to be substantial 
economic disruption as a result of that, and all of us 
recognize that, what, a third of the world maybe is living on 
less than $2 a day, and they know how we live. So there are 
huge challenges here, and they are scattered around the globe, 
and it would be nice if they would all go away, but they are 
not.
    And we also recognize that we cannot meet all those 
challenges. We need the leverage, we need to build partner 
capacity, et cetera, and ideally other states would keep those 
challenges from ever becoming a challenge to us. And this is 
what you guys think about all the time. You think about it from 
the perspective of the specific roles that you have. So it is 
DOD, it is State, it is SOCOM, it is the specific things that I 
need to do, how I need to adjust, how my group needs to adjust 
in order to better address the situation.
    I would like each of you to think about what you have read 
lately, you know, authors, articles, books, critics, 
commentators, the people you think have been particularly 
perceptive about the threats and how we as a country need to 
try to reorganize ourselves, as a country, not just your 
individual bailiwicks, how we need to reorganize ourselves so 
that we maximize our effectiveness in the long run in 
addressing those threats.
    I would like each of you to think about that for just a 
second and independently just tell me who out there you think 
is quite thoughtful about this, has written some good stuff, 
has some good views, and I would like you to be open-minded 
enough to say, frankly, they are kind of critical of what we 
are doing, you know, they do not agree with me, but they are 
pretty thoughtful.
    And then the second thing I would like you to offer me is 
where you think we are falling short, we are clearly going to 
fall short, we do not have it right now, we have not quite 
figured it out.
    And if you would just run through, I have only five minutes 
here. So if each of you could take 30 seconds or so and quickly 
give me answers to that, it would be helpful.
    I guess, Mr. Vickers, we will start with you since you 
started off the whole hearing.
    Mr. Vickers. Sure. A couple of good things I have read 
recently. David Ignatius had a good column, I think, a couple 
of weeks ago. He just came back from a trip in Iraq and 
Afghanistan and talked about the combination of soft power and 
hard power through PRTs and Special Operations Forces.
    I think there is a lot more going on there than that, but 
he captured the essence of a couple of important instruments 
that we have and how in some cases we are leveraging small 
amounts of capability to really achieve outsized effects. You 
know, things have gotten worse in Afghanistan, but they could 
have gotten much worse. The much feared 2007----
    Mr. Marshall. We are not going to get through the whole 
list before the chairman cuts us off, if you editorialize----
    Mr. Vickers. All right. The second thing is Bob Kaplan, 
stealth supremacy, an article in The Atlantic recently about 
how to do a global posture. Recently. It is probably two years 
old or so.
    Shortfalls--I talked earlier about strategic 
communications. I think the war on terror requires a different 
approach than the approach we have had in the past, and I think 
that is still the hardest problem that we are facing.
    Ambassador Herbst. There was testimony given a few weeks 
ago by among others Carlos Pascual and Michele Flournoy about 
developing a civilian responsible capability, which I would 
recommend.
    If you talk about something a little bit broader focused, I 
forget the author's name, but the book, The Pentagon's New Map, 
is very, very interesting and worthwhile reading. There is a 
book by Frank Fukuyama on nation-building which is a cautionary 
book which I think is worth reading, as well as the RAND guide 
to nation building.
    Thank you.
    Admiral Davenport. At Joint Forces Command, we developed a 
product called the Joint Operating Environment, which is a 
future look at what the operating environment might be, and it 
gets to many of the threats that you just talked about, and so 
we see that there is a wide expanse of possibilities out there, 
but what is foremost on our scope right now is irregular 
warfare.
    Colin Gray has written some recent articles and books on 
irregular warfare and the challenges we face there that we are 
looking at real hard right now, and Joint Forces Command 
overall has an increasing emphasis on trying to ensure we are 
addressing that irregular warfare threat and the challenge we 
face in the future.
    General Holmes. I would say Dr. Joseph Nye at the JFK 
School of Government, a lot of writing about soft power that I 
have read recently, and then the occasion about eight or nine 
months ago to hear Newt Gingrich as he went through changes 
that he felt like had to be made across our structures.
    Where we are falling short--I think being able to 
articulate exactly what strategic communications is or is not 
and then being willing to do it, and then also to articulate 
what irregular warfare is and what it means to us.
    General Kearney. I think the two authors that I have read 
certainly that best describe the threat are George Weigel--it 
was a book given to me by former CIA Director Woolsey, and I 
forget the title, and I will get it to you, sir--and then Walid 
Phares' Future Jihad. Both get right at the core of why jihadis 
are what they are.
    And then I would tell you the thing that keeps me awake at 
night is that we have failed to educate American on the threat. 
We knew more about the Soviet formation that moved across the 
Fulda Gap than we know about the threat facing us today, and we 
have failed to provide them that narrative is our strategic 
communications.
    Colonel Osborne. Yes, sir. I do not recall the author. A 
retired British general published a book called Utility of 
Force, an exploration of how force applies in the broader 
context of irregular scenarios, and he cited many instances in 
his career spanning his early days in Northern Ireland through 
Desert Storm, Desert Shield.
    The other one is a book called Infidel by Miriam Ali. It is 
a compelling personal narrative of a woman's journey from 
Somalia to actually living in the United States, and while her 
story is compelling, her street-level observations on the 
changes that were taking place in a society in the 1980's, 
early 1990's are indicative of the sort of awareness that we 
need to be able to develop to understand culture, societies, 
and secondary and tertiary effects of what is happening in our 
strategic global enterprise.
    I think, sir, the most frustrating thing that we see right 
now, almost everybody has hit on it, is the strategic agility 
side of how we deal in this 21st century. We tend to move in a 
cumbersome, lethargic way, particularly compared against our 
current adversaries, and plowing through that is one of the 
greatest challenges that we face.
    Dr. Snyder. Are you done, Mr. Marshall?
    Mr. Marshall. Thank you for the time.
    Dr. Snyder. That list of readings makes my reading a couple 
of nights ago, Llama, Llama Red Pajama to my son seem kind of 
lightweight, but----
    [Laughter.]
    Dr. Snyder. Mrs. Gillibrand for five minutes.
    Mrs. Gillibrand. Thank you, Mr. Chairman.
    Thank you for your testimony.
    I want to follow up on the issue of the primacy of 
strategic communication.
    Colonel Osborne, in your testimony, you say, ``While 
opportunities to push critical United States Government (USG) 
messages abound, many challenges make these efforts more 
difficult than they initially appear. For example, the ability 
to communicate in the most appropriate medium is not 
necessarily aligned with the authority to do so.''
    Can you expand upon that and tell me what authority you are 
lacking and what you are referring to?
    Colonel Osborne. Yes, ma'am, and I will try to answer that, 
and then I will defer. I am not by career field a strategic 
communicator.
    I think most important when we talk about strategic 
communications from the soft perspective, and I think the 
irregular warfare perspective, it is important to note that we 
are talking about deeds. That is the most compelling message 
that we send, and it is lining up all of the other 
communication mediums to support that.
    And I think that that, in many cases, has been that 
struggle where we are capable fully of planning operations and 
doing so in a way from the tactical to the strategic continuum 
that are achieving good effects and clearly articulating our 
desires and eliciting the behaviors that we want, but on the 
flip side, not being able to at the same time recognize that 
primacy of the communications side to attach to those deeds, 
and be able to push that through, as I said a moment ago, a 
somewhat cumbersome bureaucracy that allows us to link those 
two elements most effectively.
    Mrs. Gillibrand. I think in your testimony you said that 
you thought the State Department would take the lead with 
support from the DOD. I would like comments from the State 
Department on what you think that would mean and whether there 
are barriers for you to do that now.
    Ambassador Herbst. If we set up the Interagency Management 
System, there will be an interagency group which develops the 
concept as to how we would deploy in a stabilization operation. 
There will be irregular warfare circumstances where the State 
Department would not be engaged or there may be somewhere that 
we might be engaged in a strictly supportive role. It will 
depend upon the circumstances. There is no single answer or 
single template to deal with the problems we are facing. There 
needs to be flexibility.
    Mrs. Gillibrand. Thank you.
    I would also like to turn a little bit more to the 
challenges of recruitment. Obviously, you have all created an 
idea and a plan about how to restructure to handle stability 
and reconstruction operations better, but my concern is that we 
have not put in place a plan to really achieve what your goals 
are in terms of the recruitment to have the diversity of 
manpower.
    And I would certainly like some thoughts from Special 
Operations forces because if our goal was to double the size of 
Special Ops within the next two or three years, I do not think 
that is physically possible based on earlier testimony I have 
asked from various generals who have come before this 
committee. So I would like you to talk a little bit about your 
plans for recruitment and retention, how you can diversify and 
have these skill sets that you are looking for.
    Again, I would like you to also talk a little bit about 
National Guard and Reserve because one thing the National Guard 
is doing is they have deployed the agribusiness development 
team to Afghanistan, which I think is fantastic because what 
these teams will be able to do is help address the issue of 
whether you can have replacement crops, whether you can create 
economic development through agriculture that is beyond opium, 
and I think that is a very important step for the future of 
Afghanistan.
    Can you envision a National Guard in particular where you 
do have these individual skill sets already developed within 
the population because of the nature of the Guard and the 
Reserve as part of this solution, even though the testimony we 
heard earlier is not going to draw from our current forces? So 
I would like you to comment on that.
    And then last, just because I want to get all my questions 
in, I am very concerned about cyberterrorism, and as part of 
the process of reforming our abilities, what kind of 
recruitment are you doing to get our best engineers and 
technology experts from the best engineering schools in the 
world to want to serve in this capacity so that we have the 
strength that we need to make sure we keep this country safe?
    And I only raise the question because in the news this 
morning, in Pakistan, you know, they were able to shut down 
YouTube. A country shutting down a Web site, very unusual. It 
has been done before in a number of countries, but the capacity 
of cyberterrorism is growing, and I want to make sure we are 
prepared.
    General Kearney. Yes, ma'am. I will try to quickly move 
through those and then leave time for others to comment.
    First off, recruiting-wise, I think we are doing very, very 
well right now. We are moving through in our five-year plan to 
expand five Special Forces battalions. We are adding the five 
psychological operations (PSYOPs) companies, and we are 
expanding from a battalion to a full civil affairs brigade in 
the active component.
    Those are moving at the right pace. We have accelerated the 
amount of people we can put through the school, and, of course, 
humans being more important than hardware and quality being 
more important than quantity are principles we live by, and we 
are pacing ourselves to do that. To double the size of Special 
Operations Forces, as you have stated, would not be possible in 
a three- to five-year period, and I think we are moving at a 
rate that we can sustain for a period of time for those forces.
    In the National Guard and the Reserve, we have a great 
breadth of skill sets that come and work for both our special 
forces, our civil affairs brigades, which are 90 percent in the 
Reserve component, and our PSYOPs groups, and we have recruited 
those specialists into those forces and they do day to day in 
their civilian jobs exactly what we would like them to do.
    We have become through the long war prisoners of our 
mobilization policy. When you put those skill sets alone in the 
Reserve component, then as you achieve mobilization horizons, 
you now are without them for a period of time unless you grow 
the capacity in the Reserves as well as the active component. 
So, right now, we are a prisoner of the pace at which we are 
operating.
    From a cyberterror point of view, one of the things that 
Admiral Olson is trying very, very hard to do is have more 
influence with the services on recruiting, retention, and how 
we go after and target that soldier that will become the 
Special Forces cyberterror operator of the future, and that is 
one of the things that we are working with the services right 
now.
    But to get that caliber of individual, it is often very, 
very difficult to recruit that person in at pay levels that are 
not commensurate with what his skills or her skills would draw 
on the outside without tremendous bonuses and other things, and 
I think we are trying to explore that. We have built some 
capability inside of our Special Operations Forces and some of 
our special mission units to do just what you are talking about 
and partner with our interagency partners in the intelligence 
community who are doing this.
    But we are all competing for the same pool and so, again, 
as the ambassador has stated, very often we need to work to how 
are we going to gain this capability, who is best suited to 
bring that on board to work.
    But I think your questions are all spot on, ma'am.
    Mrs. Gillibrand. Will you follow up with me on what your 
plan is, particularly for recruiting with cyberterrorism, 
because you may well have to create a different kind of formula 
to get these best and brightest in technology to want to, 
number one, serve in the military and, number two, it may 
require higher pay. But I just think it is such a vital 
component that we have not developed yet, that it may require 
thinking outside the box because a typical individual who may 
be willing to serve this country may not be that engineering 
graduate who could go work at some dot-com for an extraordinary 
amount of money to bring them in to public service.
    General Kearney. Exactly. And I would tell you that we are 
nascent, and what I would need to do is come back to you with a 
more detailed strategy to answer your question, but what I can 
tell you is what we have done successfully in other special 
missions units is to profile the person who has a propensity to 
do that, to do it well and will stay, and I think our first 
approach will be to take a look at the folks we have who are 
doing that very, very well, analyze their psychological, 
physical, and mental profiles, and then go, ``How do we get at 
them?'' and then ``What are the incentives it will take to make 
them join our force?'' or another agency's force to do that.
    But I would be glad to come back to you, ma'am.
    Mr. Vickers. If I could add to that, in my interdependent 
capabilities hat, I have oversight of our cyberwarfare 
capabilities across the Department of Defense. Some of this we 
would have to discuss in classified session, but cyberwarriors, 
while very different people than Special Operations warriors, 
are attracted by a similar motivation in some cases to work on 
problems you simply cannot work on anywhere else.
    I just spent the day out at the National Security Agency 
(NSA) a couple of days ago, and that challenge of dealing with 
growing threats to our Nation, whether they come from states or 
non-state actors is something some Americans thankfully take on 
as a very serious responsibility, and we are making good 
progress, but I would have to talk to you about in another 
session.
    Dr. Snyder. Thank you.
    Mr. Smith, anything further?
    Mr. Smith. Nothing from me, Mr. Chairman.
    Dr. Snyder. Mr. Akin?
    Mr. Marshall, anything further? You need any more books 
listed there for you? [Laughter.]
    Dr. Snyder. Yes. Mr. Marshall would like to have all that 
listed down and passed out to all the committee. Yes.
    I was struck, in closing, Colonel Osborne, by your phrase 
``strategic agility,'' and we hear a lot of terms.
    One of them is ``soft power'' that we use, I think, as an 
important phrase. It implies no sense of urgency about it, and 
soft power kind of, I think, implies that you could just spend 
days and weeks and months trying to get the process together to 
get everything together that you need. If that included 
veterinarians or whatever, you would have time to do it.
    ``Strategic agility,'' I think, is more of the goal, I 
think, of the interest of these subcommittees and others, which 
is that needs to be available on day one, that if you decided 
you need to have a combat team plus two ag officials or three 
State Department trainers in local government that they would 
be available, too, and I do not think that any of us think that 
we are anywhere near that right now as far as we are into these 
wars that we are fighting.
    We appreciate your time. I apologize again for the 
interruptions. Both your written statements and your 
conversation today have been very helpful.
    We are adjourned.
    [Whereupon, at 5:10 p.m., the subcommittee was adjourned.]



=======================================================================




                            A P P E N D I X

                           February 26, 2008

=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 26, 2008

=======================================================================

      
      

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                           February 26, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Assistant Secretary Vickers, the Irregular Warfare 
Joint Operating Concept identifies eight key risks and associated 
mitigation strategies. One is that the United States Government might 
not develop the interagency integration mechanisms necessary to achieve 
unity of effort at every level. The JOC directs DOD to conduct concept 
development and experimentation focused on improving interagency 
integration. What actions has the Department of Defense taken to 
address the need for interagency integration mechanisms? The same unity 
of effort considerations apply with respect to stability operations. 
Are the efforts to improve interagency integration for irregular 
warfare and stability operations occurring on parallel tracks that 
create new stovepipes?
    Mr. Vickers. The Department supports efforts to establish 
interagency integration mechanisms across the USG, recognizing that 
irregular challenges manifest themselves in ways that cannot be 
overcome solely by military means. The responses those challenges 
demand extend well beyond the traditional domain of any single 
government agency or department.
    The Department supports recent efforts to institutionalize 
interagency integration, two of which are particularly focused on 
irregular warfare and stability operations:

        - The establishment of the Department of State Coordinator for 
        Reconstruction and Stabilization (S/CRS) to lead the 
        implementation of NSPD-44 ``Management of Interagency Efforts 
        for Reconstruction and Stabilization'' to include the 
        development of civilian capabilities and the integration of 
        those capabilities with the U.S. military for contingencies. 
        Several aspects of USJFCOM's Unified Action experimentation 
        series has focused on the integration of civilian and military 
        capabilities in support of NSPD-44.

        - The establishment of the National Counter Terrorism Center 
        (NCTC), which reports to the NSC staff, to lead interagency 
        steady-state and surge, or contingency, planning for the War on 
        Terrorism. Through the NCTC's Directorate for Strategic 
        Operational Planning, DOD participates in an interagency 
        dialogue to improve collaboration on a wide range of 
        initiatives and objectives, such as the National Implementation 
        Plan for the War on Terror, the National Action Plan for 
        Combating Foreign Fighters, and the National Action Plan for 
        Countering Terrorist Finance.

        - The implementation of a semi-annual War on Terrorism Global 
        Synchronization Conference, sponsored by the United States 
        Special Operations Command (USSOCOM). This conference brings 
        together senior strategists, planners, and operators from all 
        of the Combatant Commands, a broad majority of the Defense 
        Agencies, and several of our interagency partners. Through this 
        venue DOD has improved collaboration, promoted 
        interoperability, maximized effects, and shared lessons 
        learned. Each iteration of the conference draws a wider 
        interagency audience, reinforcing the importance of working 
        across traditional stovepipes to fully leverage all elements of 
        national power in the War on Terrorism.

    DOD has also developed interagency planning and coordination 
mechanisms to support operational-level integration in the field. DOD 
is integrating the interagency through Joint Interagency Coordination 
Groups (JIACGs) established at Combatant Commands (COCOM), the 
structures of which are adjusted according to COCOM priorities and 
available interagency personnel. In addition, DOD participates as a 
member of the Department of State's Coordinator for Counterterrorism's 
Regional Security Initiative that takes a regional approach to prevail 
against al Qaeda and its affiliates.
    Efforts to improve interagency integration do not create 
stovepipes. From a DOD perspective, the Under Secretary of Defense for 
Policy leads the development of all guidance regarding interagency 
integration. This guidance is developed in close coordination with the 
Combatant Commands, the Joint Staff, the Services, and civilian agency 
partners.
    Dr. Snyder. Assistant Secretary Vickers, what impact will Secretary 
England's direction to you to combine the Irregular Warfare Roadmap 
with DOD Directive 3000.05 have on the effort to put stability 
operations on par with combat operations?
    Mr. Vickers. The 2006 Quadrennial Defense Review identified the 
need to rebalance capabilities across the Department to improve joint 
force proficiency in countering irregular challenges. To implement the 
vision of the QDR, the Department developed implementation roadmaps for 
building partnership capacity, irregular warfare, and supporting DOD 
processes. DODD 3000.05, which pre-dates the 2006 QDR, provided 
influential foundational concepts for Departmental programs to counter 
irregular challenges.
    Last summer, the Department reported on the progress of DODD 
3000.05 initiatives to give stability operations a priority comparable 
to combat operations. These initiatives informed Department-wide 
concepts for defeating irregular challenges by working with and through 
the indigenous population and legitimate government to isolate and 
defeat irregular adversaries. As DOD worked to enhance relevant 
capabilities, significant synergies across capabilities became evident.
    The Department is now developing a directive to capitalize on these 
synergies, establish capstone policy for irregular warfare 
capabilities, and describe the relationship among key activities, 
including stability operations. In so doing, the directive will 
integrate the key lessons learned from the QDR Execution Roadmaps, DODD 
3000.05, and best practices from current operations. It will 
synchronize capability development across a wider range of operational 
environments--permissive, contested, and denied. This approach will 
help DOD maintain readiness for more contingencies--and provide the 
Nation with more strategic alternatives.
    Recognizing that stability operations are essential to traditional 
warfare, irregular warfare, and a range of activities that are not 
characterized as warfare per se, the Department continues to develop 
initiatives under the auspices of NSPD-44 and other interagency 
authorities. Our strategic guidance reflects this view, and recognizes 
that in many cases unified action across multiple government agencies 
is crucial to enduring success. DOD remains engaged with our 
interagency and international partners to create synergies among our 
capabilities and synchronize their application in pursuing national 
security objectives.
    Dr. Snyder. Assistant Secretary Vickers, can you comment on how the 
President's FY 2009 budget reflects implementation of the policy to 
make stability operations as important as combat operations in terms of 
doctrine, organization, training, material, leadership and education, 
personnel and facilities (or the so-called ``DOT-MIL-P-F'')?
    Mr. Vickers. DOD will not be creating separate stability operations 
budget lines, but rather driving a shift in capability development 
priorities. DOD is working through existing capabilities development 
processes to determine future needs. A critical element of that process 
will be determining those adaptations made in response to Operations 
Enduring Freedom and Iraqi Freedom and funded through supplemental 
appropriations that need to be institutionalized for this new 
environment.
    The Office of the Secretary of Defense is working with the Services 
and Combatant Commands to identify and prioritize the `full range' of 
capabilities required for Irregular Warfare and Stability Operations to 
include their DOTMLPF implications.
    In his recent testimony regarding the FY09 budget, the Secretary of 
Defense highlighted a theme running throughout the FY09 budget request: 
ensuring the Department is prepared to address the international 
landscape characterized by new threats and instability. Specific budget 
requests highlight this change:

        - Increased End Strength: increasing Army size by 7,000 over 
        and Marine Corps by 5,000 over FY08 levels enabling the 
        Department to relieve stress on the force caused by the Long 
        War and ensuring it is able to excel at conventional warfare 
        and counterinsurgency operations. (Personnel)

        - Global Train and Equip: providing commanders a means to fill 
        longstanding gaps in our ability to build the capacity and 
        capabilities of partner nations. (Authorities)

        - Security & Stabilization Assistance: allowing the Department 
        to transfer up to $200 million to the State Department to 
        facilitate whole-of-government responses to stability and 
        security missions. (Authorities)

        - AFRICOM: funding to launch the new Africa Command, allowing 
        the Department to have a more integrated approach. 
        (Organization)

        - Foreign Languages: providing for increased language training 
        for all forces to improve preparation for irregular warfare, 
        training and advising missions, humanitarian efforts, and 
        security and stabilization operations. (Training)

    Dr. Snyder. Assistant Secretary Vickers, GAO reported that DOD has 
not fully established mechanisms that would help it obtain interagency 
participation in the military planning process at the combatant 
commands. What mechanisms currently exist to facilitate interagency 
coordination at the combatant commands and how effective are they? What 
mechanisms are planned for the future? JFCOM reports that OSD declined 
to take further action on its concept of operations for the role and 
placement of Joint Interagency Coordination Groups (JIACGs) at the 
combatant commands. Can you explain the rationale behind that decision?
    Mr. Vickers. DOD is developing mechanisms to increase interagency 
participation in the military planning process here in DC, at the 
combatant commands, and in the field. In many ways, the most important 
integration points are here in DC and in the field, at U.S. Embassies; 
because those are the places where our interagency partners make 
decisions and operate. Other Departments and Agencies do not have 
organizational corollaries to Combatant Commands (COCOM), making COCOMs 
a difficult integration point for our interagency partners.
    What mechanisms currently exist to facilitate interagency 
coordination at the combatant commands and how effective are they?
    Each of the Geographic Combatant Commands (COCOM) has established a 
Joint Interagency Coordination Group (JIACG) to assist with liaison and 
planning at the operational level. The structure of the JIACGs varies 
based on the COCOM's priorities and the participation of interagency 
personnel. All COCOMs have noted that other Federal Agencies have 
difficulty providing qualified liaisons to JIACGs on a permanent basis.
    Each COCOM has tailored their JIACG to fit its mission. Some 
examples are illustrative:

        - USSOUTHCOM has established a J9 staff section that includes 
        the JIACG liaisons as well as military staff to coordinate 
        interagency efforts. In the context of USSOUTHCOM's operational 
        environment and focus, this approach works well.

        - USNORTHCOM's mission and location uses a different approach--
        using direct liaison with Federal agencies as well as a JIACG.

        - USEUCOM and USPACOM both employ JIACGs for interagency 
        planning, and participation is tailored to their respective 
        missions.

    It is important to note that DOD is currently funding interagency 
participation in JIACG organizations. It may be more effective for 
other Federal Agencies to program and fund JIACG personnel, creating a 
more stable personnel management method and expanding the pool of 
qualified interagency planners and operators.
    What mechanisms are planned for the future?
    Recent changes to DOD planning guidance encourage interagency 
cooperation in the development of military plans. DOD is working with 
interagency partners on selected plans already. As these efforts 
progress, DOD will identify best practices and incorporate lessons 
learned into future guidance. We are grateful to the State Department 
for the input it has provided on selected plans.
    In addition, the development and use of whole-of-government 
planning frameworks will facilitate civilian agency integration into 
military planning and vice versa. Recent interagency involvement in 
global war on terror planning through U.S. Special Operations Command's 
(USSOCOM) Global Synch Conference is a good model upon which the 
Department will look to build for the future. In addition, DOD has 
collaborated on the development of the Integration Planning Cell 
concept, a team of civilian agency planners and experts who would 
deploy to the CoCom under the Interagency Management System, to 
facilitate the harmonization of military and civilian planning for 
reconstruction and stabilization.
    JFCOM reports that OSD declined to take further action on its 
concept of operations for the role and placement of Joint Interagency 
Coordination Groups (JIACGs) at the combatant commands. Can you explain 
the rationale behind that decision?
    DOD does not want to impose a one-size-fits all approach. Rather, 
we recommended that the COCOMs tailor their JIACGs for regional 
missions.
    Dr. Snyder. Assistant Secretary Vickers, GAO reported that DOD's 
policies and practices inhibit sharing of planning information and 
limit interagency participation in the development of combatant command 
plans. Specifically, DOD does not have a process in place to facilitate 
information sharing with non-DOD agencies early in the process without 
the specific approval of the Secretary of Defense. What steps is DOD 
taking to amend its policies and practices to improve information 
sharing with interagency partners in the planning process?
    Mr. Vickers. Currently, we share aspects of many of our plans with 
elements of other agencies, while not necessarily sharing the entire 
plan itself. When DOD considers sharing its campaign and contingency 
plans, the Department must balance the benefits with the need for force 
protection, operational security, and timely plan development. 
Combatant Commands can work in coordination with OUSD(P) and Joint 
Staff to integrate other agencies into plan development with the 
approval of the Secretary of Defense. In the execution of current 
operations, DOD encourages field coordination between Combatant 
Commanders and the Chiefs of Missions as well as with liaison officers.
    Recent changes to DOD planning guidance task the COCOMs to develop 
campaign plans, moving the Department away from an exclusive focus on 
contingency-driven planning. Campaign plans will provide an opportunity 
for greater coordination and synchronization of USG activities to shape 
the current security environment in order to prevent potential threats 
to our national security interests from developing.
    However, to ensure the maximum effectiveness of input from 
interagency partners, the USG must build the capabilities of other 
agencies to understand military planning, review military plans, and 
engage in national-level planning processes.
    Regarding information sharing, DOD's Chief Information Office (CIO) 
established an Information Sharing Steering Group to serve as the focal 
point for guidance, direction, and oversight of DOD information-sharing 
initiatives. This effort builds upon the most effective practices in 
cooperative venues like the National Counter Terrorism Center (NCTC).
    The CIO has a number of ongoing initiatives to improve information 
sharing across agencies, e.g.:

        - An Information Sharing Action Plan for Civil-Military support 
        to stability operations that enhances unclassified components 
        of civil-military planning in a collaborative environment.

        - An Information Sharing Task Force with other Federal 
        Departments to establish an information sharing environment 
        that spans agency boundaries.

    These efforts, along with the provision of required authorities and 
funding to procure the necessary information technologies across the 
Federal Government, will enhance whole-of government collaboration 
under the process envisioned by applicable NSPDs.
    Note: In a separate venue, the Department can provide an overview 
of the progress we have seen in our partnerships with the intelligence 
community to increase our effectiveness in supporting international 
partners in eliminating the most dangerous threats to security.
    Dr. Snyder. How does S/CRS currently view its role in leading or 
otherwise supporting the NSPD-44 process?
    Ambassador Herbst. Under NSPD-44, the President has vested in the 
Secretary of State the responsibility to coordinate and lead integrated 
U.S. Government efforts to prepare, plan for, and conduct 
reconstruction and stabilization operations. S/CRS has been charged by 
the Secretary with implementing this directive. S/CRS has led and will 
continue to lead the interagency effort in Washington to implement the 
President's vision to develop the systems and procedures to provide 
comprehensive, whole-of-government planning for and management of 
reconstruction and stabilization policy and operations.
    Dr. Snyder. What are the roles and responsibilities of the regional 
bureaus and the new Foreign Assistance Bureau? For example, in Iraq and 
Afghanistan, the regional bureaus, not S/CRS, have the lead.
    Ambassador Herbst. In carrying out its responsibilities under NSPD-
44, S/CRS works closely with the regional bureaus, with other State 
Department bureaus, and with other Departments and Agencies as 
appropriate. Should a decision be made to activate the Interagency 
Management System for Reconstruction and Stabilization (IMS) to address 
a particular crisis, the Country Reconstruction and Stabilization Group 
(the Washington-based interagency policy coordination body for the 
situation) would be co-chaired by the Coordinator for Reconstruction 
and Stabilization, the Assistant Secretary of the relevant regional 
bureau, and an appropriate regional senior director from the National 
Security Council staff. The CRSG works within the context of the State 
Department regional bureau's foreign policy lead and the Secretary's 
foreign assistance structure.
    Dr. Snyder. How would you describe the current status of 
interagency planning for stabilization and reconstruction activities?
    Ambassador Herbst. S/CRS has developed processes and mechanisms for 
enabling and supported whole-of-government planning for reconstruction 
and stabilization operations, based on NSPD-44. These planning 
processes can be applied with or without the Interagency Management 
System (IMS).
    The Reconstruction and Stabilization Policy Coordination Committee 
coordinates interagency efforts to develop a planning framework for 
U.S. reconstruction and stabilization operations. This framework has 
been tested and exercised in a number of civilian-military exercises, 
experiments, and table top events. The planning framework has been 
taught to U.S. Government personnel (both civilian and military) 
through the Department of State's Foreign Service Institute and at 
numerous military education and training institutions. Allied nations 
have also participated in S/CRS training.
    S/CRS has facilitated and/or assisted interagency planning for 
specific country engagements in support of U.S. national security 
interests. S/CRS country-planning efforts drawing on the whole-of-
government approach have been applied to Sudan, Haiti, Cuba (in support 
of CAFC II), Kosovo, and Afghanistan (at the PRT level). These planning 
efforts involved significant participation from across the civilian 
agencies and DOD.
    Dr. Snyder. What specific actions is State taking to facilitate a 
greater understanding of the planning processes and capabilities 
between DOD and non-DOD organizations for stabilization and 
reconstruction activities?
    Ambassador Herbst. S/CRS is undertaking many actions to facilitate 
greater reciprocal understanding in both civilian and military planning 
processes and capabilities. Specifically, we are engaged in joint 
planning activities, development and application of an interagency 
planning framework, outreach to DOD, joint education endeavors, and 
interagency exercises.
    For example, in close coordination with DOD, S/CRS is heavily 
engaged in interagency planning for a range of country stabilization 
and reconstruction efforts, such as Afghanistan, Kosovo, and Haiti. 
These real-world engagements are perhaps the best way to involve our 
civilian agency and military counterparts and expose them to the 
relatively new interagency planning process.
    S/CRS is also leading an interagency process at the Policy 
Coordination Committee level to finalize the development and testing of 
a planning framework for stabilization and reconstruction activities--a 
process that will be reviewed and approved by the NSC.
    In addition, S/CRS has led two separate interagency exercises over 
the past year with robust participation from various levels of DOD and 
two separate combatant commands. S/CRS has also participated in a range 
of military exercises, especially those where exposure to interagency 
planning tools and response mechanisms builds civil-military capacity. 
Also, S/CRS has successfully encouraged DOD and civilian agency 
participation in numerous reconstruction and stabilization courses at 
the Department of State's Foreign Service Institute that give students 
an in-depth exposure to planning tools and new interagency capabilities 
provided by NSPD-44. S/CRS officers have participated and shaped the 
curriculum of numerous military planning courses offered by DOD as 
well.
    S/CRS has also established relationships with OSD, Joint Staff, and 
every major Geographic Combatant Command and service component, in an 
effort to further their understanding of the interagency planning 
framework, the Interagency Management System (IMS), and civilian active 
and reserve expeditionary capabilities.
    Dr. Snyder. In your view, would the Joint Interagency Coordination 
Groups at the combatant command be an appropriate interagency planning 
mechanism to engage in deliberate planning?
    Ambassador Herbst. It is my understanding that the Joint 
Interagency Coordination Groups (JIACG) largely serve in an advisory 
role to the Commander and were not set up to perform deliberate 
planning. However, I would refer you to the DOD for further information 
on the role and capabilities of the JIACG.
    Dr. Snyder. How would the Joint Interagency Coordination Groups 
interact with the NSPD-44 framework's Interagency Planning Cells when 
stood up for crisis planning?
    Ambassador Herbst. The Interagency Management System establishes a 
civilian planning cell that deploys to the Geographic Combatant Command 
(GCC) to harmonize civilian and military planning in support of U.S. 
reconstruction and stabilization strategic objectives. This cell would 
focus specifically on the planning for the reconstruction and 
stabilization operation, while the Joint Interagency Coordination 
Groups (JIACG) would provide the Commander with advice on issues and 
topics related to the entire GCC Area of Responsibility.
    Individual agencies (such as USAID or Justice) in consultation with 
the Combatant Commander, would determine if their personnel at the 
JIACG would support the Integration Planning Cell (IPC) or if 
additional personnel would need to be deployed to fulfill the IPC 
requirements.
    Dr. Snyder. How, if at all, does NSC-approved Interagency 
Management System (IMS) developed under NSPD-44 differ from the NSPD-1 
structures and processes used for operation in Iraq and Afghanistan?
    Ambassador Herbst. NSPD-1 establishes the interagency bodies for 
consideration of policy issues affecting national security, including 
the Principals Committee (PC), Deputies Committee (DC), and Policy 
Coordination Committees (PCCs). NSPD-44 directs the Secretary of State 
to coordinate and lead interagency efforts to prepare, plan for, and 
conduct reconstruction and stabilization efforts.
    As a part of the specific coordination function articulated in 
NSPD-44, the Secretary of State is directed to provide decision makers 
with detailed options for an integrated U.S. Government response to 
specific reconstruction and stabilization operations including 
recommending when to establish a limited-time PCC-level group called 
the Country Reconstruction and Stabilization Group (CRSG).
    In accordance with NSPD-44 and NSPD-1, the CRSG have the role and 
responsibilities provided to a PCC. The CRSG is responsible for 
coordinating interagency crisis response and providing recommendations 
on strategic guidance on all policy and resource issues related to the 
specific country or crisis, including recommendations on lead roles 
between all elements of the interagency. It is chaired by the State 
Department Regional Assistant Secretary and/or Special Envoy, the 
National Security Council Staff Senior Regional Director, and S/CRS and 
includes Assistant Secretary-level membership from all relevant 
agencies and offices. Interagency representation on a CRSG makes this 
body the focal point for overall planning and program integration.
    Dr. Snyder. In what specific ways would the IMS and other elements 
of the framework improve the U.S. management of those operations?
    Ambassador Herbst. The Interagency Management System (IMS) is 
fundamentally about ensuring integrated, whole-of-government planning 
and operational integration for future stabilization and reconstruction 
missions. This happens through facilitated real-time information 
sharing that can provide the interagency process in Washington, the 
Combatant Command, the Embassy, and agencies in the field with one 
shared operating picture and a mechanism for improved communication and 
decision-making. This shared picture will allow us to engage in more 
effective joint planning, to better leverage resources across U.S. 
agencies and among international partners, and would allow for more 
coherent mobilization of civilian and military resources to the field.
    Dr. Snyder. If the IMS would, in fact, help improve the U.S. 
response in Iraq and Afghanistan, why is the Administration not using 
the system for those operations?
    Ambassador Herbst. The IMS was approved by the NSC in March 2007, 
well after the U.S. operations in Afghanistan and Iraq were already 
underway. S/CRS and other departments and agencies that were actively 
involved in developing the IMS have worked with the Afghanistan 
Interagency Operations Group (AIOG) and the Iraq Policy and Operations 
Group (IPOG) to facilitate the sharing of stabilization and 
reconstruction lessons learned to help improve the U.S. response. Given 
the wealth of operational experience and lessons learned already 
resident in the existing interagency structures for Afghanistan and 
Iraq, it would not be advantageous to implement the IMS for those 
engagements at this time.
    Dr. Snyder. How will DOD's new direction to issue a comprehensive 
irregular warfare directive impact the NSPD-44 efforts? Will NSPD-44 be 
rewritten?
    Ambassador Herbst. NSPD-44 provides a whole of government planning 
and operating framework for operations that require similar supporting 
DOD capabilities.
    Within the context of NSPD-44, the Pentagon has the responsibility 
to develop its own departmental doctrine for contributing to the U.S. 
Government response to national security challenges such as failed and 
failing states.
    Dr. Snyder. How will your office be involved in irregular warfare 
planning?
    Ambassador Herbst. In the context of NSPD-44, we are working with 
the Pentagon and Combatant Commands on stabilization and reconstruction 
issues and expect this cooperation to continue as DOD works out its 
doctrine.
    Dr. Snyder. Representative Marshall asked you to name any authors 
or writings that struck you as especially perceptive insights on how 
our country should best confront the unconventional threats it faces. 
Would you please name any authors or works that have influenced your 
thinking, whether in agreement or disagreement, on this subject?
    Ambassador Herbst. The following works have been particularly 
useful to me in my work:

        <bullet>  State-Building: Governance and World Order in the 
        21st Century, by Frank Fukuyama;

        <bullet>  The Pentagon's New Map, by Thomas Barnett;

        <bullet>  The Beginner's Guide to Nation Building, by James 
        Dobbins, Seth Jones, Keith Crane, and Beth Cole DeGrasse; and

        <bullet>  Political Order in Changing Societies, by Samuel 
        Huntington.

    Dr. Snyder. General Holmes, please describe CENTCOM's Joint 
Interagency Coordination Group including who is on it and what they do.
    General Holmes. USCENTCOM Joint Interagency Coordination Group's 
(JIACG) mission is to facilitate planning by the Commander, USCENTCOM, 
and his staff; coordinate information sharing between U.S. military and 
U.S. government agencies; and advise Commander, USCENTCOM and staff on 
interagency issues in the execution of U.S. Central Command's mission.
    However, as directed by the acting Commander, the Joint Interagency 
Coordination Group merged into an Interagency Task Force (IATF) to 
continue this mission and better incorporate other Central Command 
elements by combining the offices of JIACG, Counter-Improvised 
Explosive Device (Counter-IED) Group, Strategic Communications and 
Information Operations into one division within the Operations (J3) 
Directorate.
    IATF provides: 1) a whole of government approach to USCENTCOM 
engagements, 2) multi-agency and multi-lateral coordination across 
Areas of Responsibility (AOR) and Combatant Command (COCOM) objectives, 
and 3) regional influence/venue coordination.
    Focus areas supported by IATF are:

    1) Set conditions for stability in Iraq through:

        a. Provincial Reconstruction Teams (PRTs)

        b.  Training Programs for Border Security, Threat Finance, and 
        Rule of Law

        c. Iraq Threat Finance Cell

    2) Expand governance and security in Afghanistan through:

        a. PRTs

        b. Counter Narcotics Efforts

        c. Counter Threat Finance

        d. Training Programs

    3)  Degrade violent extremist networks and operations, with 
defeating al Qaeda the priority through:

        a. Detainee interrogations support

        b. High Value Individual

        c. Iraq Threat Finance Cell

        d.  Counter-Improvised Explosive Device (IED) support

    4)  Strengthen relationships and influence states and organizations 
to contribute to regional stability and the free flow of commerce 
through the Alternative Development Program.

    5)  Posture the force to build and sustain joint and combined 
warfighting capabilities and readiness in Operation Iraqi Freedom 
(OIF), Operation Enduring Freedom (OEF) and Major Regional Exercises.

    Issues requiring an interagency approach include:

    1) Strategic Effects, 2) Weapons of Mass Destruction, 3) Regional 
War on Terror, 4) Transnational Crime, 5) Maritime, Port & Border 
Security, 6) Disaster Relief, 7) Counter-Terrorism, 8) Counter Threat 
Finance, 9) Long-Term Posture, 10) Security Assistance, 11) Non-
Combatant Evacuation Operations, 12) Counter-IED, 13) Counter-
Narcotics, 14) Pandemic Influenza, 15) Exercise Support to OIF/OEF, 16) 
Strategic Communication, 17) Partner Security Forces, 18) Foreign 
Humanitarian Assistance and 19) Noncombatant Evacuation Operations.

    The IATF participates in planning efforts with the following 
organizations:

    1) Effects Synchronization Committee--CENTCOM's committee to 
synchronize collection and strategic targeting against those who 
significantly influence the operations, direction or funding of 
terrorists and terrorist insurgencies throughout the region

    2) National Counter Terrorism Center.

    To achieve the interagency approach, IATF integrates, coordinates, 
and synchronizes the following personnel to meet non-traditional 
security threats and challenges:

    1) Director (SES, with 0-7 oversight)

    2) Deputy Director (0-6)

    3) Three Branch Chiefs (2 x 0-6, 1 x GS-15)

    4) Admin Support (1 officer, 3 enlisted)

    5)  Action Officers (Mix of officer, enlisted, civilian)

    6)  Representatives from other Federal agencies including: 
Department of State, Federal Bureau of Investigations, Drug Enforcement 
Agency, Department of Homeland Security, Treasury Department, and 
United States Agency for International Development.

    Dr. Snyder. General Holmes, CENTCOM's Combined Joint Task Force--
Horn of Africa conducts many of the core missions inherent in stability 
operations. What interagency participation is there at the CJTF 
headquarters and what part does your Joint Interagency Coordination 
Group play in organizing the efforts of the other departments and 
agencies in support of the task force?
    General Holmes. Interagency participation in the Combined Joint 
Task Force--Horn of Africa (CJTF-HOA) is largely coordinated in the 
Embassy Djibouti Country Team. The CENTCOM IATF coordinates several 
classified interagency operations among the Federal Bureau of 
Investigation (FBI) and Department of State (DOS).
    The IATF serves as a coordinator between the interagency 
organizations in Washington, DC and the CJTF-HOA. Specifically, our 
Department of State Liaison facilitates host nation permission for 
military entry into territorial waters of a HOA nation to effect a 
counternarcotics operation. Further, Department of State supports 
embassies or consulates in every HOA country except for Somalia. Our 
FBI Liaison facilitates investigations and coordinates U.S. law 
enforcement actions in the HOA nations as requested by the U.S. or 
local governments.
    Dr. Snyder. General Holmes, CENTCOM appears to have exercised only 
a monitoring role of its Provincial Reconstruction Teams in Iraq and 
Afghanistan. While there are differences between the composition and 
mission emphasis of the teams in Iraq and Afghanistan, shouldn't 
CENTCOM be playing a greater role in developing the joint and even 
interagency doctrine that guides them? How is CENTCOM assessing the 
progress the PRTs are making?
    General Holmes. At the combatant command level, CENTCOM conducts 
and oversees its components with instructions for policy guidance, 
promulgates Department of Defense directives and other documents such 
as handbooks and assists in the implementation of operating concepts 
and memos of agreement from Joint Staff, Office of Secretary of Defense 
and the interagency. CENTCOM provides doctrine review and recommends 
Tactics, Training and Procedures (TTP) to Joint Forces Command 
regarding Stability Operations.
    Primarily, CENTCOM exercises a monitoring role over PRTs, focusing 
mainly on stability and security progress/status in our area of 
responsibility. Numerous DOD and USG agencies assess (to varying levels 
of degrees) the progress and success of the PRTs. PRTs are managed in 
two diverse manners in Iraq and Afghanistan; Iraq PRTs are led by the 
Department of State and Afghanistan PRTs are led by the International 
Security Assistance Force (ISAF). Both concepts achieve the overarching 
goals of promoting the expansion of the Central government into the 
provinces and mentor and coach the provincial leadership in being good 
stewards on behalf of the provincial population.
    In Iraq PRTs have been led by the Department of State, since 
inception. Originally, called Provincial Support Teams (PST) they have 
limited military involvement. After Ambassador Khalilizad moved from 
Afghanistan to Iraq at the end of 2004, the PRT program stepped forward 
because he saw this as the way ahead and supported its development. 
When they were reconfigured into the PRTs of today, Civil Affairs was 
tasked to be the lead military element within the PRT, directed by the 
Department of State.
    The current military/civilian relationship in Iraq is effective and 
progressive. MNF-I forces continually incorporate non-kinetic options 
into their operational missions with success. PRT staffs work with 
Brigade Combat Teams as well as the interagency and other non-
governmental agencies to effect positive change in the communities they 
serve. As security improves, PRT effects will increase as all personnel 
are able to interact more freely. The project development and monies 
for Iraq PRTs are actually not at issue, since Iraqi budgets fund their 
projects and Iraq Provincial Councils are developing construction plans 
in accordance with the Iraq Development Strategy.
    ISAF administers PRT activities in Afghanistan. ISAF, with help 
from its many member nations is achieving coherence among all 26 PRTs 
by solidifying personnel from over 20 different nations into an 
organized command quite capable of assisting the Islamic Republic of 
Afghanistan (IRoA). In demonstration, ISAF published its PRT Handbook; 
endorsed by the ambassadorial-level PRT Executive Steering Committee 
(ESC) in Kabul as the standard for PRT operation. This document focuses 
in on the various pillars that need shaping in order to have a 
functioning society. This culminates more than four years of inputs 
from the GOA, ISAF, Combined Forces Command--Afghanistan (CFC-A), 
United Nations Assistance Mission Afghanistan (UNAMA) and international 
development agencies. The handbook outlines basic guiding principles 
and proven best practices each PRT should draw upon when designing and 
implementing strategy to meet the challenges of its particular area of 
operations. ISAF also orchestrates the efforts each government's 
financial efforts, ensuring all accomplishments are nested and vetted 
against the Afghanistan National Development Plan (ANDP). ISAF also 
works with USAID and other major contributors to manage projects across 
the country with funds provided by sources in addition to each PRT's 
lead government.
    Dr. Snyder. General Holmes, a new irregular warfare document will 
replace DODD 3000.05. Is CENTCOM taking a proactive role in assessing 
and recording its counterinsurgency experience from Iraq and 
Afghanistan for inclusion in this directive?
    General Holmes. USCENTCOM has conducted active collection through 
other agents, including USSOCOM and USJFCOM, and established a 
classified lessons learned program which receives information, 
recommendations and suggestions from all sources. This data is 
collected, assessed and validated against findings and observations 
collected while forces are engaged in Irregular Warfare/Counter-
Insurgency (COIN) operations. These findings (or lessons learned) cover 
the full spectrum of COIN operations from non-kinetic activities to 
full kinetic actions. The information is contained in a database to 
archive these lessons learned and will eventually be resident on our 
command's Joint Lessons Learned Information System (JILLS) database and 
in USJFCOM's Joint Lessons Learned Repository (JLLR), (both systems are 
currently under development and implementation). A number of Joint 
Urgent Operational Needs (JUONs) and Immediate Warfighter Needs (IWNs) 
statements of requirement have been initiated by USCENTCOM that will 
enhance on-going and future COIN operations.
    Dr. Snyder. Colonel Osborne, according to the Irregular Warfare 
Joint Operating Concept, in the future, Irregular Warfare campaigns 
will increasingly require military general purpose forces to perform 
missions that in the last few decades have been viewed primarily as 
Special Operation Forces (SOF) activities. How might this change the 
future mission of SOF?
    Colonel Osborne. In my opinion, SOF will not change its core tasks 
or mission focus. However, an increased use of general purpose forces 
in select scenarios will increase our capacity to conduct engagement 
activities and allow SOF to focus on the most appropriate missions.
    Dr. Snyder. Colonel Osborne, the Irregular Warfare Joint Operating 
Concept proposes three alternatives for further development and 
experimentation that would provide models to coordinate interagency 
command and control: (1) extending the Joint Interagency Task Force 
(JIATF) to irregular warfare; (2) establishing interagency Advisory 
Assistance Teams at sub-national levels of government; and (3) 
expanding the use of U.S. Military Groups (MILGRPs) to conduct and 
support irregular warfare. Can you explain the pros and cons of each 
approach?
    Colonel Osborne. The potential approaches identified in the 
Irregular Warfare (IW) Joint Operating Concept (JOC) are being explored 
as part of the concept development and experimentation currently 
underway by the U.S. Special Operations Command (USSOCOM), Joint Forces 
Command and a number of other agencies. Some thoughts are expressed 
below however a thorough analysis has yet to be completed.
    The Joint Interagency Task Force (JIATF) Model has proved to be a 
valuable command and control mechanism for integrating civil-military 
operations in operational areas, but have been historically a short 
term military led organization. JIATF's operate under the operational 
control of the Geographic Combatant Commander and are by definition not 
part of the U.S. Mission (Embassy), therefore not part of the Country 
team which could lead to sub-optimization and over-militarization of 
the ``whole-of-government'' approach to solving or managing the 
political problem in question.
    The IA Advisory Assistance Teams at the sub-national levels of 
government have proven to be successful, but more recent Provincial 
Reconstruction Teams (PRTs) in Iraq have been challenged because of 
insufficient numbers of them, being asked to do too much, inadequate 
civilian manning, inadequate efforts to integrate them, and a 
relatively lower priority than combat units.
    The expanded MILGRP Model could be a long term solution and organic 
to the U.S. Mission, fully integrated into the Country Team, and much 
more likely to subordinate its military activities to the broader 
``whole-of-government'' approach led by the Chief of Mission. Although 
a permanent organization would solidify relationships and allow for 
continuous oversight more effectively, it would require more 
infrastructure and manning to execute. This model will also likely have 
to function under constraints imposed by both the host nation and our 
own Country Team.
    Dr. Snyder. Colonel Osborne, please describe SOCOM's Interagency 
Task Force. How does it relate to the J-10, which you direct? How does 
the J-10 interact with SOCOM's Global Synchronization Division, which 
works with the National Counterterrorism Center in the War on Terror?
    Colonel Osborne. The USSOCOM Inter-Agency Task Force (IATF) serves 
as a coordinating activity within the Department of Defense (DOD) and 
across the Inter-Agency (IA). The goal is to be a reliable and 
connected entity that is able to integrate IA efforts while solving 
discrete problem sets that support the global war on terror (GWOT). The 
IATF is functionally organized along two major focus areas and several 
enduring tasks. Major focus area efforts are combating the foreign 
terrorist network (FTN) and expanding United States Government document 
and media exploitation (DOMEX) capacity. The IATF's enduring tasks 
include counter narcoterrorism, threat finance, persistent surveillance 
requirements, counterterrorism research and analysis, information 
operations, support to the inter-agency partnership program (IAPP), and 
time-sensitive planning.
    Dr. Snyder. Colonel Osborne, what role has SOCOM played in 
implementation of NSPD-44, given its proponency for the civil affairs 
mission?
    Colonel Osborne. Civil Affairs (CA) is outside my area of expertise 
but I believe the USSOCOM role is primarily as a force provider for the 
Geographic Combatant Commanders. In that capacity we provide trained 
and equipped Civil Affairs forces to support theater specific plans and 
operations. Additionally, as the DOD proponent, we are responsible for 
individual, unit, and institutional training of CA core tasks which are 
fundamental to stability operations. The U.S. Army John F. Kennedy 
Special Warfare Center and School at Fort Bragg, North Carolina, is the 
principle vehicle through which this training is developed and 
conducted.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. MARSHALL
    Mr. Marshall. Assistant Secretary Vickers, could you name any 
authors or writings that struck you as especially perceptive insights 
on how our country should best confront the unconventional global 
threats it faces?
    Mr. Vickers. I recommend Vali Nasr, Bernard Lewis, Fawas Gerges, 
and Walid Phares as scholars who offer important insights on the 
challenges our Nation faces.
    Mr. Marshall. Admiral Davenport, could you name any authors or 
writings that struck you as especially perceptive insights on how our 
country should best confront the unconventional global threat it faces?
    Admiral Davenport. We draw ideas from a wide range of academic 
writings, think-tank monographs, and other informed authors to help 
understand our problem sets and their potential solutions. Colin Gray 
is an author that has strongly influenced my thinking as Joint Forces 
Command (JFCOM) examines ways to deal with the global threat 
environment. Some of his most significant works include:

        - Fighting Talk: Forty Maxims on War, Peace, and Strategy (Apr 
        07)

        - War, Peace, and International Relations: An Introduction to 
        Strategic History (Jul 07)

        - ``Irregular Warfare: One Nature, Many Characters'' Strategic 
        Studies Quarterly (Winter 2007).

    Additionally, we develop ideas from a wide range of academic white 
papers, think-tank monographs, and other outside agency sources to help 
understand our problem sets and their potential solutions. Important 
source documents that influence our thinking as we examine ways to deal 
with the global threat environment include:

        - More Than Humanitarianism; A Strategic U.S. Approach Toward 
        Africa (January 2006) is a Council on Foreign Relations study 
        chaired by Mr. Anthony Lake and Ms. Christine Todd Whitman. The 
        document views Africa as more than just a charity case and 
        advocates for a strong mix of policies, programs and 
        organizational reforms that will address the broader range of 
        African issues that influence U.S. national interests.

        - The Quest For Viable Peace: International Intervention And 
        Strategies For Conflict Transformation (May 2005) was co-
        authored by Mr. Len Hawley, who has worked with us in JFCOM as 
        a Senior Mentor on numerous projects, and Mr. Jock Covey and 
        Mr. Michael J. Dziedzic. The book reviews the issues involved 
        with nation-building and makes concrete recommendations on 
        rebuilding shattered societies based on the principles of 
        defeating militant extremism, inculcating rule of law, and 
        establishing a political economy that reduces rather than 
        ignites conflict.

        - The Beginner's Guide to Nation-Building (2007) is a 330-page 
        RAND monograph done by James Dobbins, Seth G. Jones, Keith 
        Crane, and Beth Cole DeGrasse. As described by RAND, the guide 
        is a ``. . . practical `how-to' manual on the conduct of 
        effective nation-building. It is organized around the 
        constituent elements that make up any nation-building mission: 
        military, police, rule of law, humanitarian relief, governance, 
        economic stabilization, democratization, and development . . . 
        The lessons are drawn principally from 16 U.S.- and UN-led 
        nation-building operations since World War II and from a 
        forthcoming study on European-led missions. In short, this 
        guidebook presents a comprehensive history of best practices in 
        nation-building . . .''

    Finally, Joint Forces Command has a very robust professional 
reading list that I frequently use and regularly refer to. This list 
contains a wide range of books and articles that provide background and 
thought provoking analysis on many topics of interest. I have included 
the list below for your convenience and hope you find it useful:

    1. GEN (Ret) Rupert Smith (British Army), The Utility of Force. 
Former deputy SACEUR, commanded the British armored division in the 
1991 Gulf War, commanded the U.N. peacekeeping force in Bosnia in 1995 
and spent many years in Northern Ireland. In this book he describes the 
new model of war: ``The ends for which we fight are changing from the 
hard objectives that decide a political outcome to those of 
establishing conditions in which the outcome may be decided.'' (2007)

    2. Martin Van Creveld, The Transformation of War. Van Creveld 
argues that Clausewitz, whose tenets form the basis for Western 
strategic thought, is largely irrelevant to nonpolitical wars such as 
the Islamic jihad and wars for existence such as Israel's Six-Day War. 
Wars in the future will be waged by terrorists, guerrillas and bandits 
motivated by fanatical, ideologically-based loyalties; conventional 
battles will be replaced by skirmishes, bombings and massacres. (1991) 
Recommend whole book.

    3. FM 3-24/MCWP 3-33.5. Manual takes a general approach to 
counterinsurgency operations. The Army and Marine Corps recognize that 
every insurgency is contextual and presents its own set of challenges. 
Nonetheless, all use variations of standard themes and adhere to 
elements of a recognizable revolutionary campaign plan. This manual 
addresses common characteristics of insurgencies to provide those 
conducting counterinsurgency campaigns with a solid foundation for 
understanding and addressing specific insurgencies. (2006) Recommend 
whole book.

    4. MG Robert Scales (Ret), Yellow Smoke. MG Scales argues that, 
given Iraq, Afghanistan, and the ongoing war against terrorism, the 
importance of land warfare seems certain to grow. Despite superiority 
on almost every front, the U.S. armed forces have been effectively 
challenged on battlefields near and far. War remains as much art as 
science and MG Scales offers on example of what to expect if we 
substitute science and technology wholesale for the understanding of 
history and humanity. (2003) Recommend whole book, but could scale to 
Chapters 1, 2, 7, and 9.

    5. Colin Gray, Fighting Talk--Forty Maxims on War, Peace, and 
Strategy. Gray discusses the nature of strategy, war, and peace, 
organized around forty maxims. This collection of mini-essays will 
forearm politicians, soldiers, and the attentive general public against 
many fallacies that abound in contemporary debates about war, peace, 
and security. The maxims are grouped into five clusters: War and Peace; 
Strategy; Military Power and Warfare; Security and Insecurity; and 
History and the Future. (2007)

    6. The National Security Strategy of the United States of America. 
Available at http://www.whitehouse.gov/nsc/nss/2006/nss2006.pdf

    The National Defense Strategy of the United States of America. 
Available at http://www.defenselink.mil/news/Apr2005/
d20050408strategy.pdf

    The Unified Command Plan (UCP). Available at http://j5.js.smil.mil/
sp/Organization/links/2006%20UCP.pdf (SIPRNET)

    7. GEN (Ret) Gary Luck, ``Insights on Joint Operations: The Art and 
Science'' A Common Perspective (November 2006). GEN Luck argues that 
the United States and its allies are engaged in a protracted global war 
within a very complex security environment. Our enemies are not only 
foreign states, but also non-state entities, loosely organized networks 
with no discernible hierarchical structure. These adversaries can not 
be defined only in terms of their military capabilities. They must be 
defined, visualized, and ``attacked'' more comprehensively, in terms of 
their interconnected political, military, economic, social, 
informational, and infrastructure systems. http://www.dtic.mil/
doctrine/jel/comm_per/acp14_2.pdf

    8. Lieutenant Colonel David Kilcullen, ``Countering Global 
Insurgency'' Small Wars Journal (NOV 2004). The paper proposes a new 
strategic approach to the global War on Terrorism, arguing that the War 
is best understood as a global insurgency. Therefore counterinsurgency 
rather than traditional counterterrorism may offer the best approach to 
defeating global jihad. But classical counterinsurgency is designed to 
defeat insurgency in a single country. Therefore a fundamental 
reappraisal of counterinsurgency is needed, to develop methods 
effective against global insurgency. http://www.smallwarsjournal.com/
documents/kilcullen.pdf

    9. George Packer, ``Knowing the Enemy: Can Social Scientists 
Redefine the ``War on Terror'' The New Yorker (18 December 2006). 
Packer's populist summary of David Kilcullen's thesis (above) ``There 
are elements in human psychological and social makeup that drive what's 
happening. The Islamic bit is secondary. This is human behavior in an 
Islamic setting. This is not `Islamic behavior. . . . People don't get 
pushed into rebellion by their ideology. They get pulled in by their 
social networks.''
    http://www.newyorker.com/archive/2006/12/18/061218fa_fact2

    10. Montgomery McFate, ``The Military Utility of Understanding 
Adversary Culture'' Joint Force Quarterly (JUL 2005). Cultural 
knowledge and warfare are inextricably bound. Knowledge of one's 
adversary has been sought since Herodotus studied his opponents' 
conduct during the Persian Wars (490-479 BC). Although ``know thy 
enemy'' is one of the first principles of warfare, our military 
operations and national security decision-making have consistently 
suffered due to lack of knowledge of foreign cultures.
    http://www.dtic.mil/doctrine/jel/jfq_pubs/1038.pdf

    11. Advising Foreign Forces: Tactics, Techniques and Procedures--
Center for Army Lessons Learned Special Edition No. 06-01 dated January 
2006 (requires AKO account). A practical guide for individuals and 
units to use in preparation for missions as trainers and advisors to 
foreign military units.

    Mr. Marshall. General Holmes, could you name any authors or 
writings that struck you as especially perceptive insights on how our 
country should best confront the unconventional global threats it 
faces?
    General Holmes. The following authors and their works influenced my 
thinking and understanding on Irregular Warfare:

    1) All works by Dr. Joseph Nye, Director of JFK School of 
Government

    2) The works, briefings and general writings of Newt Gingrich

    3) ``Fighting the War of Ideas Like a Real War'' by J. Michael 
Waller

    4) The current writings of LTG (ret) David Barno

    5) ``Multi-Service Concept for Irregular Warfare'' by Gen John 
Mattis, USMC and ADM Eric Olsen, USN

    Mr. Marshall. General Kearney, could you name any authors or 
writings that struck you as especially perceptive insights on how our 
country should best confront the unconventional global threats it 
faces?
    General Kearney. The two publications mentioned were ``Future 
Jihad'' by Walid Phares and ``Faith, Reason, and the War Against 
Jihadism: A Call to Action'' by George Weigel. As noted during the 
hearing, I think these publications best describe the threat we are 
facing.
    Mr. Marshall. Colonel Osborne, could you name any authors or 
writings that struck you as especially perceptive insights on how our 
country should best confront the unconventional global threats it 
faces?
    Colonel Osborne. During testimony I mentioned two books that I've 
recently read, ``The Utility of Force'' by General Sir Rupert Smith and 
``Infidel'' by Ayaan Hirsi Ali. In addition to these two books, I 
recommend the following books that have contributed to the irregular 
warfare dialogue: ``Information Strategy and Warfare'' edited by John 
Arquilla and Douglas A. Borer, ``Warrant for Terror'' by Shmuel Bar, 
``Counterinsurgency in Africa'' by John P. Cann, ``Counterinsurgency 
Warfare'' by David Galula, ``The I.R.A. & Its Enemies'' by Peter Hart, 
and ``To Our Great Detriment: Ignoring What Extremists Say About 
Jihad'', a thesis by Stephen Coughlin. The last book on my list is 
``The Savage Wars of Peace'' by Max Boot. This list is not all 
inclusive but does represent a good cross section of the current 
literature.
                                 ______
                                 
            QUESTIONS SUBMITTED BY MRS. DAVIS OF CALIFORNIA
    Mrs. Davis of California. Our O&I subcommittee has investigated 
training operations currently underway between State Department/USAID 
and the individual services prior to PRT deployments. Is there any 
other interagency training going on or planned? Are copies of the 
curriculum available to Congress?
    Ambassador Herbst. The State, USAID, and DOD courses represent the 
formal training for PRT members at present. In addition, some deploying 
PRT members have also taken other courses offered at the Department of 
State's Foreign Service Institute (FSI). S/CRS has worked with FSI 
since late 2005 in the design and delivery of a reconstruction and 
stabilization (R&S) training curriculum that currently includes seven 
courses. These courses cover a range of issues important to 
reconstruction and stabilization missions (to include the work of PRTs) 
including R&S assessment and planning and the Interagency Management 
System for R&S, as well as integration issues among rule of law, 
infrastructure, transitional security, and governance in an R&S 
environment. They are all interagency in design and participation. 
Copies of the course outlines are available.
    We are currently working closely with a number of other 
institutions that are developing courses on R&S including the National 
Defense University, the Naval Post-Graduate School, and the U.S. 
Institute of Peace, among others. Their courses will be included in a 
study on training on complex operations conducted by USIP for the 
Consortium for Complex Operations that will be published within the 
next few months and will help guide future training expansion.
    Mrs. Davis of California. How did this non-PRT type of interagency 
training develop?
    Ambassador Herbst. The State Department's courses on reconstruction 
and stabilization (R&S) were developed in 2005 by S/CRS and the Foreign 
Service Institute with an interagency team that included 
representatives from the U.S. Institute of Peace, USAID, and National 
Defense University, based on an interagency R&S training strategy. The 
courses have been continually revised to reflect the latest 
developments in interagency planning and R&S operations, integrating 
lessons from experiences in Iraq, Afghanistan, Haiti, and Sudan among 
others.
    This strategy is currently being updated through the NSPD-44 
implementation process in a broad interagency effort--the Training, 
Education, Exercises, and Experimentation Sub-PCC--co-chaired by S/CRS, 
USAID, and DOD.
    Mrs. Davis of California. Does the Department of State or the 
Department of Defense need additional authorities to carry out 
interagency training for Stability and/or Reconstruction Operations? 
Are there other barriers in law or policy?
    Ambassador Herbst. The authorities of the Department of State and 
those of our partner agencies are currently adequate to allow us to 
train together. Funding is the immediate barrier to increasing our 
training cooperation. The FY 2009 budget request for the Civilian 
Stabilization Initiative would cover our requirements for cooperative 
course design and delivery, administration, staffing, as well as 
tuition, travel, and per diem for training participants.
    Mrs. Davis of California. Is it feasible to extend interagency 
training to the 3,200 Marines scheduled to deploy to Afghanistan later 
this year?
    Ambassador Herbst. Presently this level of unit training is being 
supported by civilian role players at the National Training Center at 
Fort Irwin and the Joint Readiness Training Center at Ft Polk. S/CRS is 
working with the interagency to improve civil-military integration 
training at the Brigade Task Force level in these venues including 
Marine mobilization and readiness exercises at Twenty Nine Palms, 
California.
    Mrs. Davis of California. Has S/CRS examined the Ft. Bragg model 
for Afghanistan PRT training?
    Ambassador Herbst. S/CRS has been a partner and actively involved 
with the creation and evolution of the Fort Bragg training, from 
initial efforts to the interagency field assessment conducted this 
month to inform training planned for fall 2008. This past year, S/CRS 
briefed PRT military staff, delivered a day-long training on 
interagency assessment and planning at the Fort Bragg series to the 
full PRT teams, played a key role in developing the scenarios for the 
week-long capstone training event, and provided mentors during the 
exercise itself. In these activities, S/CRS is in support of State's 
Bureau of South and Central Asian Affairs and USAID's Office of 
Military Affairs.
    Mrs. Davis of California. What about for future deployments?
    Ambassador Herbst. S/CRS continues to be involved in the Fort Bragg 
Afghanistan PRT training and is currently participating in development 
of the next iteration. The lessons from Afghanistan training will be 
collected through an upcoming interagency PRT Lessons Learned Workshop 
and during an April training assessment in Kabul. These lessons will be 
integrated into current planning for pre-deployment training in future 
deployments.
    Mrs. Davis of California. Can S/CRS extend Ft. Bragg's model of 
interagency training for Afghan PRTs to Iraq PRT training, which is now 
limited to a five day optional course at the Foreign Service Institute 
and does not train teams together nor does it connect to the BCT that 
it will work within theater for its Mission Rehearsal exercise?
    Ambassador Herbst. Following announcement of the New Way Forward in 
January 2007, the Department of State, U.S. Agency for International 
Development, Department of Defense, and other agencies created an 
interagency PRT training course at the Department of State's Foreign 
Service Institute in order to provide specialized training for the 
hundreds of State, DOD, and other agency personnel deploying to Iraq. 
The State-led Iraq interagency constantly re-evaluates and makes 
adjustments to PRT training. It is important to note that aside from 
the name, PRT operations in Iraq and Afghanistan profoundly differ in 
leadership, structure, staffing, and focus. Because Iraq PRT's do not 
rotate as a unit, and because not all Iraq PRT's are paired with a 
Brigade, it is not feasible to replicate the training structure used 
for Afghanistan. However, we recognize the value of joint civilian-
military training and are exploring ways to increase those 
opportunities. For example, the Iraq PRT inter-agency working group, in 
which S/CRS regularly participates, recently expanded interagency 
attendance at the regular Iraq PRT training meeting to, among other 
objectives, discuss opportunities for military and civilian elements of 
the PRTs to train together and to support each others' training 
efforts. S/CRS will continue to support such efforts to share best 
practices and lessons learned across agencies and across theaters.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DRAKE
    Mrs. Drake. I enjoyed visiting Joint Forces Command on many 
occasions. On one such trip I was given the opportunity to observe the 
Noble Resolve experiment and I am pleased this work is being down in 
the Hampton Roads Region. I believe it will help to contribute to the 
overall preparedness, security and safety of Virginia and our nations. 
As I understand it, this experiment is heavily focused on interagency 
cooperation, particularly Homeland Security, and the involvement of the 
National Guard and FEMA. In your written statement, you state ``JFCOM 
is engaged in a broad array of efforts to improve DOD and interagency 
integration and capabilities, and is rapidly inserting these 
improvements into the operating force.'' Can you explain how Noble 
Resolve experiments will lead to improved interagency collaboration and 
coordination? Can you explain what your future plans are for Noble 
Resolve? Will this experiment expand beyond the Tidewater area?
    Admiral Davenport. One of our major focal points for Noble Resolve 
is information sharing between all elements of national response to 
threats to and crisis within the homeland--including defense, federal, 
state and local responders. This line of effort identifies, evaluates, 
and socializes new technologies, processes, and organizational 
constructs that overcome barriers to information sharing within DOD as 
well as between DOD elements and interagency, NGO, and multinational 
partners. We continue to work closely with USNORTHCOM on establishing a 
common operational picture that can be shared between all participants 
in our experimentation events. We're also looking at solutions to the 
problem of sharing information across security domains, from secret to 
unclassified systems, etc. We expect information sharing to remain a 
priority for Joint Experimentation for the foreseeable future.
    Our Noble Resolve effort, which is being conducted in direct 
support of USNORTHCOM, has been focused well beyond the Tidewater area. 
In 2007, in addition to our work with Virginia, we conducted 
experimentation with military and civilian organizations in the state 
of Oregon. In this year's campaign (Noble Resolve 08), we are 
attempting to raise our level of engagement to better address regional 
issues. While Noble Resolve 08 work will focus on issues with regional 
impact, we still engage a limited number of individual states as our 
actual experiment partners. In 2008, we are working with Virginia, 
Indiana, Texas, and Oregon. In future work, we will partner with states 
that are capable and interested in helping address those critical areas 
of Homeland Defense and Defense Support to Civil Authorities that have 
been identified for joint experimentation.
    Mrs. Drake. How much will AFRICOM's efforts toward a ``whole of 
government'' target inform your progress toward interagency 
coordination first envisioned in the joint interagency coordination 
group (JIACG) concept? Should we expect most of these gains to be 
material, organizational, or doctrinal in nature?
    Admiral Davenport. Joint Forces Command's (JFCOM) efforts at 
establishing Joint Interagency Coordination Groups (JIACG) at the 
combatant commands should be seen as an important first step at 
institutionalizing the concept of ``whole of government'' into the 
military planning processes. The interagency groundwork laid by the 
JIACG program provides a baseline from which both AFRICOM and SOUTHCOM 
are organizing to exploit the powerful synergy of USG agencies working 
in alignment toward larger national goals. The proposed AFRICOM 
structure is another important step in placing ``whole of government'' 
thinking into military operations and the larger government as a whole. 
JFCOM is supporting the development of AFRICOM by facilitating an 
Interagency Mission Analysis to be completed in a series of workshops/
process that illuminate the direction our work is taking:

        - Several portions of the Interagency Mission Analysis are 
        being led by the appropriate USG civilian agencies, supported 
        by JFCOM;

        - Workshops focus on delineating the roles and responsibilities 
        of AFRICOM and civilian agencies and analyze the challenges 
        that AFRICOM will confront in taking a comprehensive approach 
        to USG planning, programming and implementation and management 
        of activities in Africa.

        - The workshops are examining the ways which representatives 
        from various USG Departments and Agencies are assigned to and 
        integrated into the staff in functional roles (as opposed to 
        liaison officers) in the proposed AFRICOM structure.

    We expect most of the expected gains in interagency coordination to 
be seen, first organizationally and then doctrinally, as the new 
command organizes its staff to develop the structures, processes and 
procedures to execute its mission in Africa.

                                  <all>

</pre></body></html>
